i

Appendix

17-1956 (L)
United States v. Calderon, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2018
Decided: December 3, 2019)

(Argued: February 5,2019

Nos. 17-1956,17-1969,17-2844,17-2866

United States of America,
Appellee,
-v.Pablo Calderon, Brett C. Lillemoe,
Defendants-Appellants.

Before:

Kearse, Pooler, and Livingston, Circuit Judges.

Defendants-Appellants Pablo Calderon and Brett C. Lillemoe appeal from
judgments entered in the United States District Court for the District of
Connecticut (Hall, /.), convicting them of conspiracy to commit bank and wire
fraud, and wire fraud in violation of 18 U.S.C. §§ 1349, 1343. On appeal, the
Defendants argue that (1) there was insufficient evidence supporting their jury
convictions under both statutes; (2) the district court erred in giving a "no ultimate
The Clerk of Court is respectfully directed to amend the caption as set forth
above.
App.l

harm" instruction to the jury; (3) the district court plainly erred in failing to charge
the jury that actual, potential, or intended harm is an element of bank fraud, 18
U.S.C. § 1344(2); and (4) the district court abused its discretion in giving a modified
Allen charge to the deadlocked jury.
The Defendants also appeal from
postjudgment orders of the district courts setting restitution amounts, contending
that the court abused its discretion in directing the Defendants to pay over $18
million in restitution pursuant to the Mandatory Victims Restitution Act of 1996,
18 U.S.C. § 3663A. We conclude that (1) there was sufficient evidence supporting
the jury convictions; (2) the district court did not err in giving the jury a "no
ultimate harm" instruction; (3) the district court did not plainly err in charging the
jury on the elements of bank fraud; (4) the district court did not abuse its discretion
in giving a modified Allen charge to the jury; but (5) the district court abused its
discretion in ordering a restitution amount of over $18 million to be paid to the
United States Department of Agriculture because the Defendants did not
proximately cause financial losses equating to that amount.
Accordingly, the restitution orders are REVERSED; the judgments of
conviction are VACATED to the extent that they ordered the Defendants to pay
restitution, and are otherwise AFFIRMED. We REMAND for entry of amended
judgments omitting the requirement for restitution.

For Appellee:

For Defendant-Appellant
Brett C. Lillemoe:

Michael S. McGarry (John Pierpont,
Sandra S. Glover, on the brief), Assistant
United States Attorneys, for John H.
Durham, United States Attorney for the
District of Connecticut, New Haven, CT.

David C. Frederick (Brendan J. Crimmins,
Andrew E. Goldsmith, Benjamin S. Softness,
on the brief), Kellogg, Hansen, Todd, Figel &
Frederick PLLC, Washington, D.C.

App.2

For Defendant-Appellant
Pablo Calderon:

Douglas M. Tween, Linklaters LLP, New
York, NY, submitted an opening brief;
Pablo Calderon, Darien, CT, submitted a
reply brief pro se and argued orally.

Debra Ann Livingston, Circuit Judge:
Defendants-Appellants Brett C. Lillemoe ("Lillemoe") and Pablo Calderon
("Calderon") (together, "Defendants") appeal from their convictions for
conspiracy to commit wire and bank fraud, 18 U.S.C. § 1349, and wire fraud, 18
U.S.C. § 1343, following a jury trial in the United States District Court for the
District of Connecticut (Hall, /.).

The Defendants' convictions arose from their

involvement in a scheme to defraud two financial institutions—Deutsche Bank
and CoBank—in connection with an export guarantee program administered by
the United States Department of Agriculture ("USDA").

The Defendants

falsified shipping documents and presented these documents to the banks,
thereby facilitating the release of millions of dollars in USDA-guaranteed loans to
foreign banks.
The Defendants argue that the Government failed to produce sufficient
evidence at trial to support their convictions.

Specifically, they argue that the

Government failed to demonstrate that, in altering these shipping documents, the

App.3

Defendants made material misrepresentations that deprived the banks of
economically valuable information, as required to support a conviction for wire or
bank fraud, or conspiracy to commit those offenses.

They also argue that the

district court erred in giving the jury a "no ultimate harm" instruction, see infra
Part II. A, plainly erred in charging the jury on the elements of bank fraud, 18 U.S.C.
§ 1344(2), and abused its discretion in giving the jury a modified Allen charge, see
infra Part III. Finally, they assert that the district court abused its discretion in
ordering the Defendants to pay over $18 million in restitution pursuant to the
Mandatory Victims Restitution Act of 1996 ("MYRA"), 18 U.S.C. § 3663A.
We conclude that there was sufficient evidence presented at trial to support
the jury's conclusion that the Defendants violated the wire fraud and conspiracy
statutes. We also hold that the district court did not err in giving the jury a "no
ultimate harm" instruction, did not plainly err in charging the jury on the elements
of bank fraud, and did not abuse its discretion in giving a modified Allen charge
to the jury.

Finally, however, we conclude that the district court abused its

discretion in holding that the USDA was entitled to a restitution amount of
$18,501,353 under the MVRA because the Defendants did not proximately cause
financial losses equating to that amount.

App.4

Accordingly, for the reasons given

herein, we reverse the orders of restitution, vacate so much of the judgments as
order restitution, and remand for the entry of amended judgments without such
orders.
BACKGROUND
I.

Factual Background2

International business transactions involving the sale of physical goods are
presently carried out by use of unique documents and contracts that serve to
mitigate risk among the geographically disparate parties.

Such transactions

remain highly dependent upon the compilation and presentation of certain
physical documents at different stages in the sales process.

Indeed, so crucial are

the documents underlying these sales that "international financial transactions"
have long been said to "rest upon the accuracy of documents rather than on the
condition of the goods they represent." Banco Espanol de Credito v. State St. Bank
& Tr. Co., 385 F.2d 230,234 (1st Cir. 1967). The Defendants falsified bills of lading,
one such category of shipping documents, so as to render them compliant with
contractual and regulatory requirements before their presentation to two U.S

2 The factual background presented here is derived from the parties' submissions
and the uncontroverted evidence presented at trial.
App.5

based financial institutions.
A. Letters of Credit in International Sales
Understanding the Defendants' scheme requires a basic comprehension of
the use of letters of credit in international sales, in this case sales of agricultural
goods.

"Originally devised to function in international trade, a letter of credit

reduce [s] the risk of nonpayment in cases where credit [is] extended to strangers
in distant places." Mago Int'l v. LHB AG, 833 F.3d 270, 272 (2d Cir. 2016) (internal
quotation marks and citation omitted). As relevant here, the process begins with
the contract for the sale of goods negotiated between a domestic exporter and a
foreign importer.

A typical contract at issue in this prosecution would be one for

the sale of soybeans between an American exporter and a Russian importer.
To avoid the risk of nonpayment by the foreign importer, the American
exporter bargains for and includes in the contract a term that requires payment by
a confirmed and irrevocable letter of credit. The foreign importer then applies to
an "issuing bank" (usually a foreign bank) to receive that letter of credit.

The

foreign-based bank then "issues" the letter of credit in favor of the American
exporter, also referred to as the "beneficiary."

The letter of credit itself

constitutes an "irrevocable promise to pay the []beneficiary when the latter

App.6

presents certain documents... that conform with the terms of the credit." Alaska
Textile Co. v. Chase Manhattan Bank, N.A., 982 F.2d 813, 815 (2d Cir. 1992). At the
same time, the domestic exporter often works with a domestic bank (also referred
to as the "confirming" bank) and assigns its right to payment on the letter of credit
to that domestic bank in exchange for immediate payment of the contract price.
The payment on the part of the confirming bank to the beneficiary triggers the
issuing bank's obligation to reimburse the confirming bank.

Thus, the domestic

exporter receives immediate payment for the sale from the domestic bank, and the
domestic bank is repaid over time and with interest by the foreign bank. The
letter of credit thereby mitigates risk by assigning the rights and obligations of the
original contract to financial institutions rather than individual importers and
exporters. Alaska Textile, 982 F.2d at 815.
To obtain immediate payment of the contract price upon assigning its right
to payment to a domestic bank, an exporter must compile a complete set of
documents and present them to that confirming bank. Among the documents
necessary to cause a bank to release funds in conformity with a letter of credit is
the final contract of relevance here, the "bill of lading."

The bill of lading is a

contract between either the exporter or the importer and an international carrier

App.7

of goods, obligating the carrier to transport the goods to the importer's location or
some other distant place.

A bill of lading "records that a carrier has received

goods from the party that wishes to ship them, states the terms of carriage, and
serves as evidence of the contract for carriage." Norfolk S. Ry. Co. v. James N. Kirby,
Pty Ltd., 543 U.S. 14, 18-19 (2004).3 The Defendants' presentation of documents,
including bills of lading, to confirming banks for inspection in order to induce the
banks to honor their obligations under various letters of credit provided the basis
for the prosecutions here.
When a confirming bank examines documents submitted to it for the
purpose of obtaining payment on a letter of credit, the confirming bank has two
duties: (1) to determine whether these documents conform to the terms of the letter
of credit; and (2) to respond if it finds any discrepancies.

J.A. 893.

The

confirming bank never sees the goods at issue, only the documents (including the

3 According to the Defendants' expert, negotiable bills of lading allow for the
flexibility of selling goods while they are in transit; non-negotiable bills do not.
Regardless of whether a bill of lading is negotiable or non-negotiable, only an original
bill of lading serves as a document of title; a copy of a bill of lading functions primarily
as a receipt. Conversely, the Government's expert explained at trial that bills of lading
are issued in sets that typically consist of three originals and any number of copies, which
are referred to as "copies non-negotiable." In any event, the experts agree that a "copy
non-negotiable" bill meaningfully differs from either a "negotiable" or "original" bill,
and we need not decide which expert is correct in order to resolve the Defendants'
sufficiency of the evidence challenge.
App.8

bill of lading). J.A. 391.

Because of this, it inspects the documents rigorously to

determine that they comply exactly with the requirements of the letter of credit—
for the documents are its only protection. Id.
Indeed, under the law of the majority of jurisdictions (including this one) if
the documents provided by the seller to the confirming bank did not "strictly"
comply with the requirements of the letter of credit, the issuing bank is entitled to
refuse to honor the letter of credit, and the confirming bank is therefore unable to
recover the money "assigned" to it by the seller.

See Voest-Alpine Int'l Corp. v.

Chase Manhattan Bank, N.A., 707 F.2d 680, 683-85 (2d Cir. 1983); see also Mago Int'l,
833 F.3d at 272 (noting that the "absolute duty" to honor the letter of credit "does
not arise unless the terms of the letter have been complied with strictly" (internal
quotation marks and citation omitted)).

"This rule [of strict compliance] finds

justification in the bank's role in the transaction being ministerial, and to require
it to determine the substantiality of discrepancies would be inconsistent with its
function." Alaska Textile, 982 F.2d at 816. If the documents were nonconforming
but honored, an issuing bank could sue a confirming bank for "wrongful honor."
See, e.g., Bank of Cochin, Ltd. v. Mfrs. Hanover Tr. Co., 808 F.2d 209 (2d Cir. 1986)
(dismissing on the ground of estoppel only because the issuing bank did not

App.9

comply with the requirements of the International Chamber of Commerce's
Uniform Customs and Practice for Documentary Credits ("UCP"), Article 8,
calling for timely notice of discrepancies in the documents).
As the Defendants themselves note, in a letter of credit transaction "'[blanks
deal with documents and not with goods, services or performances to which the
documents may relate/"

Br. Def.-Appellant Lillemoe at 5 (quoting Int'l Chamber

of Commerce, ICC Uniform Customs and Practice for Documentary Credits art. 5
(2007)); see also S.A. 98.

In sum, "because the credit engagement is concerned only

with documents,... [t]here is no room for documents which are almost the same,
or which will do just as well." Alaska Textile, 982 F.2d at 816 (internal quotation
marks and citation omitted).
B. The GSM-102 Program and the Defendants' "Structured" Transactions
The GSM-102 program—which is administered by USDA's Foreign
Agricultural Service on behalf of the Commodity Credit Corporation ("CCC"), the
USDA entity that issues the credit guarantees—provides an incentive for United
States banks to participate in letters of credit export transactions with developing
nations. As already made clear, the seller in such a transaction enjoys immediate
payment for the sale, but the domestic bank must accept the risk that a foreign
bank will default on its payment obligations, and in circumstances in which
App.10

redress may be difficult, if not impossible, to obtain.

To encourage U.S.-based

banks nevertheless to participate in such transactions, the CCC, through the GSM102 program, guarantees the foreign bank's repayment to the domestic bank,
generally covering ninety-eight percent of the foreign bank's obligation under the
letter of credit.

Every fiscal year, the USDA makes $5.5 billion available under

the GSM-102 program.
The Defendants were not the exporters of agricultural goods, but instead
participated in the GSM-102 program as financial intermediaries, creating
"structured" or "third party" transactions.

Essentially, the Defendants would

pay a fee to "rent" or "purchase" program-eligible "trade flows," i.e., the actual
shipments of goods guaranteed by the GSM-102 program, from physical exporters
and importers.

Having secured the requisite "trade flow," the Defendants would

arrange for letters of credit between foreign and domestic banks backed by the
USDA guarantee. In exchange, they received fees from the foreign banks.

In

orchestrating these GSM-102 transactions, the Defendants were also responsible
for the presentation of complying documents to the confirming (in this case the
domestic) banks.

See J.A. 1020 (Testimony of Lillemoe stating "[It's] not exactly

a simple process ... So my role is to put together a lot of different pieces and make

App.ll

the transaction work ... we describe it as sort of lining up the sun, the moon and
the stars to align everything and put it all together").
C. Altering Bills of Lading and the "Cool Express" Transaction
Participating in the GSM-102 program as a financial intermediary is not
itself illegal.

The Defendants were convicted of wire fraud and conspiracy to

commit wire and bank fraud for falsifying bills of lading before presenting them
to two banks, Deutsche Bank and CoBank, in order to make the documents facially
compliant with the terms of the relevant letters of credit and the requirements of
the GSM-102 program. According to the evidence presented by the Government
at trial, the Defendants applied for the GSM-102 program guarantees before
acquiring the requisite "trade flow."

They would then purchase shipping

documents and arrange for letters of credit between foreign and domestic banks
backed by this USDA guarantee.

If the purchased documents failed to comply

with the USDA's requirements as well as those provided for in the relevant letters
of credit, the Defendants would simply falsify the documents to make them
compliant.

Of central importance are two types of alterations, which were

explored at length in the trial described below: (1) the Defendants' redaction of the
phrase "copy non-negotiable" and the stamping of the word "original" onto bills
of lading; and (2) the Defendants' changing of certain bills of ladings' "on-board"
App.12

dates.
Finally, all of the counts of wire fraud on which the Defendants were
convicted involved conduct relating to a GSM-102 transaction between CoBank
and the International Industrial Bank located in Russia ("IIB").

The letter of

credit for that transaction was issued by IIB, and the goods were shipped on a
vessel called the "Cool Express."

J.A. 1074, 1077.

To facilitate this "Cool

Express" transaction, Lillemoe "whited out" the word "copy non-negotiable" on
some of the bills of lading and placed an "original" stamp on them. J.A. 1092-94.
These modified documents were forwarded to Calderon for his review before their
submission to CoBank.

J.A. 1093-94.

Following the global financial crisis in

2007, IIB defaulted on its $6,000,000 in obligations to CoBank under the letter of
credit.

The USDA reimbursed the full amount available under the guarantee

(ninety-eight percent of the loan value).4
II. Procedural History
On February 20, 2015, a grand jury returned a twenty-three-count
indictment against Lillemoe, Calderon, and their associate, Sarah Zirbes.

The

Indictment charged Lillemoe with one count of conspiracy to commit bank fraud

4 The Defendants paid CoBank an upfront fee of three percent.
App.13

and wire fraud, nineteen counts of wire fraud, one count of bank fraud, and one
count of money laundering.

It charged Calderon with one count of conspiracy to

commit wire fraud and bank fraud, nineteen counts of wire fraud, one count of
bank fraud, one count of money laundering, and one count of making a false
statement.

The Indictment alleged, in part, that Lillemoe and Calderon

conspired to commit bank fraud and wire fraud by materially altering shipping
documents.
A. The Trial
At trial, the Government offered a variety of evidence to demonstrate that
the Defendants applied for guarantees under the GSM-102 program, purchased
"trade flows" from third-parties that would not have been compliant with the
terms of the program, arranged letters of credit between foreign and domestic
banks, falsified bills of lading, and then presented those altered documents to
Deutsche Bank and CoBank, causing the banks to disburse funds to a U.S. exporter
according to the terms of letters of credit associated with ten GSM-102
transactions.

The Government introduced, inter alia, (a) the GSM-102 program

files that contained the documents that were submitted to the American banks
along with (b) the unaltered bills of lading that were provided to Lillemoe and

App.14

Calderon and the subsequently altered versions.

The Government also

introduced the testimony of CoBank representative Holly Womack, Deutsche
Bank representative Rudolph Effing, USDA official John Doster, and Federal
Bureau of Investigation Special Agent Steven West.

The Government and the

Defense introduced competing experts on letters of credit transactions, and
Lillemoe testified in his own defense. 5

Because the significance of the

Defendants' alterations of the bills of lading is the central issue on this appeal, we
catalogue the evidence offered on this question below.
1. Stamping
The Government submitted evidence that the Defendants falsified bills of
lading by redacting the word "copy non-negotiable" or "certified true copy"
(usually via white out) and stamping the word "original" onto a number of them.
The Defendants do not dispute that they modified the bills of lading in question
nor that the respective letters of credit governing these altered bills of lading
required presentation of a "copy of original on board . . . bill(s) of lading." J.A.
1851.

Moreover, the Government presented evidence at trial that in order to

submit a claim of loss to the GSM-102 program, a bank would need to submit a

5 The Defendants also introduced various character witnesses.
App.15

copy of an original bill of lading.

J.A. 1791.

The Government also submitted

evidence as to the Defendants' knowledge of this requirement.

See, e.g. J.A. 3617-

18 (Email from Lillemoe stating "just checked with the bank financing the GSM
deal.

They need the copy of the [bill of lading] to state 'Original' in order to

accept it").

CoBank representative Womack and Deutsche Bank representative

Effing testified respectively at the Defendants' trial that they would not have
accepted the Defendants' bills of lading (and therefore would not have released
funds on the transactions) had they known that the Defendants had stamped the
word "original" onto "copy non-negotiable" bills of lading. That is, if their banks
"didn't have a copy of an original" they "wouldn't have paid the funds."

J.A.

458. At trial, however, the Defense attempted to characterize the modifications
to the bills of lading as insignificant, trivial changes that could not have affected
the confirming banks' decisions as to whether to honor the letters of credit.
Lillemoe testified that he stamped the word "original" in blue ink on the bills of
lading in order to make it "easier for everybody."

J.A. 1010. The Government

and Defense also offered competing expert testimony as to the significance of the
stamping activity.
2. Date Changes
The GSM-102 program guarantees also had restrictions limiting them to
App.16

shipments that occurred within specific date ranges.

The Government

introduced substantial evidence at trial demonstrating that Lillemoe and Calderon
changed the "on-board" notation printed on three bills of lading associated with
two GSM-102 transactions to state October 6, 2008, instead of October 5, 2008.
J.A. 1057. The Defendants' alterations placed the shipments within an acceptable
range.

See 7 C.F.R. §§ 1493.20(d), 1493.60(f) (2012) (GSM-102 regulations stating

that "datejs] of export prior to the date" of the guarantee application "are ineligible
for... guarantee coverage" and defining a "date of export" as a bill of lading's "on
board date"). Thus, the Government argued at trial that the Defendants altered
dates on bills of lading to ensure each underlying transaction's eligibility for a
GSM-102 guarantee.

The parties contest neither that the relevant goods were

aboard the ships on October 6th, nor that they were actually shipped on October
5th.
According to the Defense experts and Lillemoe, the "on-board" date on a
bill of lading has a functional significance and can fall on any date that the goods
are "on board" the ship.

The Government presented a great deal of evidence,

however, in support of its claim that the "on-board" date can only represent the
date the goods are actually shipped, and that this understanding was shared by all

App.17

parties involved.

For example, the Government's expert, Professor James Byrne,

testified at trial:
A. [The on-board date] is deemed to indicate the date that the goods
are shipped. The date of shipment is extremely important in letter
of credit practice. It is important to banks. It is important to
applicants in most cases. And so the date which is given as the on
board or loaded on board date is deemed to be the date of shipment
or shipping. Shipping date....
Q. Can that be a range of dates?
A. No. It is the date they are loaded on board.
J.A. 1246.

USDA Official Doster, who was responsible for ensuring that

"registrations were properly issued for the GSM-102 program," J.A. 522, also
testified to that effect, as well as to that date's importance with regard to the USDA
guarantee. J.A. 455,526 ("Q: [D]oes the program ever guarantee [with respect to]
shipments before the on board date? A: No"); see also J.A. 396 (defining
"registration" as a record reflecting "that the CCC has shipped that guarantee and
received the fee and then they recorded that guarantee in their books as ... a
guarantor obligation on behalf of the CCC").6

6 The Government also presented evidence at trial that the Defendants shaded
blank "consignee" fields (which designate the receiving party of the goods) on six bills of
lading, allegedly to make it less "obvious" that the consignee fields had been whited-out.
J.A. 1018. The Defense offered evidence that the fields were whited-out to protect the
confidentiality of the consignee. See J.A. 887-88. The Defendants were acquitted of all
App.18 '

B.

The Jury Verdict and Post-Trial Motions

On November 3, 2016, after hearing eighteen days of evidence, the jury
began its deliberations. The jury deliberated for about a week, before stating that
it had "concluded" deliberations, but informing the court that it was "deadlocked"
on some counts. J.A. 1352. The court decided to give a modified Allen charge,
which encouraged the jury to continue deliberating (discussed, infra Part III).
After receiving the Allen charge, the jury returned a verdict of guilty
for Lillemoe on Count One of conspiracy and Counts Two through Six of wire
fraud, and it returned a verdict of guilty for Calderon on Count One of conspiracy
and Count Six of wire fraud.7 The Defendants were acquitted on the other counts
of wire fraud, bank fraud, money laundering, and false statements.

Following

the guilty verdict, the district court sentenced Lillemoe to fifteen months'
imprisonment to be followed by three years of supervised release, and it sentenced
Calderon to five months' imprisonment. The Court also ordered forfeiture in the
amount of $1,543,287.60 from Lillemoe and $63,509.97 from Calderon.
Lillemoe and Calderon each filed a motion for a judgment of acquittal

of the substantive counts of wire fraud that were connected to this "shading" activity.
7 The jury acquitted Zirbes on all counts.
App.19

pursuant to Rule 29 of the Federal Rules of Criminal Procedure and a motion for a
new trial pursuant to Rule 33.
denied both motions.
2017).

In an order dated March 16,2017, the district court

United States v. Lillemoe, 242 F. Supp. 3d 109,115 (D. Conn.

On September 11, 2017, the district court entered separate restitution

orders as to both Defendants.

United States v. Lillemoe, No. 15-CR-25 (JCH), 2017

WL 3977921, at *1 (D. Conn. Sept. 11,2017). The district court held that the USDA
was entitled to an order of restitution of $18,501,353 after reimbursing the banks
in the GSM-102 program for various transactions with which the Defendants were
involved.
$305,743.33.

Id.

The district court also ordered the Defendants to pay CoBank

Id. at *2.

Each defendant filed timely notices of appeal from the

judgment and the restitution order entered against him.
DISCUSSION
The Defendants raise a variety of challenges to their respective convictions
and the ensuing restitution orders imposed by the district court.

Many of these

challenges relate to the Defendants' central contention that their alterations of the
bills of lading were not and could not have been fraudulent.

Ultimately, we reject

that central contention. We do conclude, however, that the district court abused
its discretion in fashioning the restitution orders at issue here.

App.20

I.
The Defendants first challenge the sufficiency of the evidence underlying
their convictions for wire fraud and conspiracy to commit wire and bank fraud.
The Defendants concede that they modified bills of lading in connection with
various international transactions guaranteed by the GSM-102 program, but they
argue that the Government failed to produce sufficient evidence at trial to support
the jury's determination that this conduct satisfied the elements of wire or bank
fraud (or conspiracy to commit the same). We disagree and find no reason to
upset the jury's determination on this question.
We note at the outset that a defendant who challenges the sufficiency of the
evidence to support his conviction "faces an uphill battle, and bears a very heavy
burden." United States v. Mi Sun Cho, 713 F.3d 716, 720 (2d Cir. 2013) (internal
quotation marks and citation omitted). In considering such a challenge, "[w]e
must view the evidence in the light most favorable to the government, crediting
every inference that could have been drawn in the government's favor, and
deferring to the jury's assessment of witness credibility." United States v. Baker,
899 F.3d 123, 129 (2d Cir. 2018) (internal quotation marks and brackets omitted).
"Although sufficiency review is de novo, we will uphold the judgment of

App.21

conviction if any rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt."

United States v. Martoma, 894 F.3d 64, 72

(2d Cir. 2017) (internal quotation marks and brackets omitted).
The essential elements of wire fraud are "(1) a scheme to defraud, (2) money
or property as the object of the scheme, and (3) use of . . . wires to further the
scheme." Fountain v. United States, 357 F.3d 250, 255 (2d Cir. 2004) (internal
quotation marks and brackets omitted).

Similarly, the federal bank fraud statute

criminalizes the '"knowing execution' of a scheme to 'defraud a financial
institution.'"

United States v. Bouchard, 828 F.3d 116, 124 (2d Cir. 2016) (quoting

18 U.S.C. § 1344) (brackets omitted).

Thus, both wire fraud and bank fraud

require the Government to prove that the defendant had an intent to deprive the
victim of money or property. Moreover, to establish the existence of a scheme to
defraud, the Government must prove the materiality of a defendant's false
statements or misrepresentations.

United States v. Weaver, 860 F.3d 90,94 (2d Cir.

2017). The Defendants argue that (1) the Government failed to offer sufficient
evidence as to the "materiality" of their alterations to the bills of lading; and (2)
that the Government failed to present sufficient evidence that they intended to

App.22

deprive the victim banks of money or property.

We take each of these

arguments—and reject them—in turn.
A.
We first consider the Defendants' materiality claim.

The wire and bank

fraud statutes do not criminalize every deceitful act, however trivial.

As noted

above, to sustain a conviction under these statutes, the Government must prove
that the defendant in question engaged in a deceptive course of conduct by making
material misrepresentations.

Neder v. United States, 527 U.S. 1, 4 (1999). "To be

'material' means to have probative weight, i.e., reasonably likely to influence the
[bank] in making a determination required to be made."
490 F.3d 208, 234 (2d Cir. 2007).

United States v. Rigas,

As the Supreme Court has put it, a material

misrepresentation has "a natural tendency to influence, or [is] capable of
influencing, the decision of the decisionmaking body to which it [is]
addressed."

Neder, 527 U.S. at 16 (internal quotation marks and citation

omitted). Where, as here, a "bank's discretion is limited by an agreement, we
must look to the agreement to determine what factors are relevant, and when a
misstatement becomes material."

Rigas, 490 F.3d at 235.

App.23

All of these

specifications of the materiality inquiry target the same question: would the
misrepresentation actually matter in a meaningful way to a rational decisionmaker?
The Defendants argue that their alterations to the bills of lading could not
have been material to the banks.

They point to United States v. Litvak, 808 F.3d

160 (2d Cir. 2015), where we held that a defendant's admitted misstatements were
not material to the Treasury Department because the Government had submitted
no evidence demonstrating that these misstatements were capable of influencing
a Treasury Department decision. Id. at 172.

Instead, the evidence presented at

trial established that the Treasury was "kept. . . away from making buy and sell
decisions" and retained "no authority to tell investment managers which
[security] to purchase or at what price to transact."
brackets, and citation omitted).

Id. (internal quotation marks,

Similarly, in Rigas, we held that because there

was no evidence that the Defendants' misstatements there would have influenced
the banks' investment decisions as to what interest rate to charge, those
misstatements were not material. 490 F.3d at 235.
The Defendants argue that the banks here, like the Treasury Department in
Litvak and the banks in Rigas, retained limited discretion in rejecting the
documents, and that the Government offered insufficient evidence that the

App.24

changes made to the bills of lading were capable of influencing the banks'
decisions.

Specifically, the Defendants first argue that the domestic banks'

decisions as to whether to release the funds for these transactions were not
discretionary at all, but were instead governed by the terms of the letters of credit,
and contingent only on the banks' being presented with evidence that the
shipment was program compliant.

Thus, because the bills of lading appeared to

be compliant with the letters of credit and the GSM-102 program requirements,
the argument goes, the banks had no discretion to reject them and any alterations
were immaterial.
We reject this argument. As the court below described it, the Defendants
essentially assert that "if the bank is presented with a document altered carefully
enough," the bank lacks discretion to decline to honor the letter of credit and the
misrepresentations therefore lack materiality.

Lillemoe, 242 F. Supp. 3d at 117.

In other words, under the Defendants' theory, the better the fraudster, the less
likely he is to have committed fraud.

We decline to reverse the jury's rejection of

this argument, which would entail countenancing any and all falsifications of
documents involved in these or similar transactions, as long as they were carried
out with sufficient skill.

App.25

The Defendants next argue that the bills of lading they provided fulfilled
the obligations of the letters of credit prior to their altering them. Therefore, their
theory goes, the Defendants needlessly modified the documents because, in any
event, the bills of lading already fulfilled the function of the "required
document[s]" even if they were altered in minor ways.

Br. Def.-Appellant

Lillemoe at 27. The Government offered substantial evidence at trial, however,
that the banks could have and would have rejected the bills of lading had they not
been altered or had the banks known of the specific alterations at issue.

The

relevant letters of credit clearly called for "copies of original" bills of lading, as did
the GSM-102 program, see, e.g. J.A. 1851-54 (requiring a copy of an "original on
board . . . bill(s) of lading"), 1791 (requiring "a true and correct copy" of "the
negotiable . . . bill(s) of lading"), and the program guarantees had restrictions
limiting them to shipments that occurred within specific date ranges. J.A. 526.
Given these requirements, it is not surprising that CoBank representative
Holly Womack and Deutsche Bank representative Rudolph Effing testified that
their respective banks would have declined to go through with the transactions at
issue had they known about the specific alterations the Defendants made to the
bills of lading.

See, e.g. J.A. 458 (testimony of Womack that if the confirming bank

App.26

"didn't have a copy of an original on board, original bill of lading" it "wouldn't
have paid the funds" because "we [wouldn't] have a complying set of documents
so we wouldn't have an obligation under the [letter of credit] [from the] issuing
bank"); J.A. 470 (testimony of Womack that she would not have accepted the
unaltered bill of lading prior to the Defendants' date change because it would have
made the document non-compliant and "[w]e wouldn't be able to file a claim [with
the USDA] and be paid if the bank defaulted on the obligation"); J.A. 421
(testimony of Effing that "if any of the information that's on that document is not
in compliance with the requirements on the program or letter of credit, then we
just can't accept it").

After all, to submit a claim to the USDA, the banks had to

submit these documents and certify that they were "true and correct copies of the
originals that [they] received."

J.A. 463.

The testimony of USDA Official

Doster, moreover, buttressed this testimony as to the materiality of the
Defendants' changes, J.A. 548-49, as did the Government's expert, who testified as
to the functional significance of the Defendants' changes.

J.A. 1248-49.

For

example, to qualify for the already-secured USDA guarantee, the shipments
involved had to have occurred on or after October 6, 2008.
alterations implicated compliance with that requirement.

App.27

The Defendants'

Additionally, the Government produced several of the Defendants' own
communications, which spoke to the materiality of the Defendants' changes.

See

J.A. 3616 (e-mail from Lillemoe stating that "we'll need a copy [of] the ORIGINAL
[bill of lading]. We cannot execute with the 'Non-Negotiable' version"); J.A. 361718 (e-mail from Lillemoe stating "just checked with the bank financing the GSM
deal. They need the copy of the [bill of lading] to state 'Original' in order to accept
it."); J.A. 1907 (e-mail from Lillemoe stating "[f]or us we need [bills of lading] to
state 'Original' and that are signed.

We'll simply white out the 'Copy Non-

Negotiable' on the signed copies and stamp 'Original' ourselves.

So we're now

OK on the [bills of lading]."); J.A. 2343 (e-mail from Lillemoe to Calderon
describing a date change as "[n]ot my best work, but good enough for now").
These statements provide additional evidence that the confirming banks needed
to receive copies of "original" bills of lading with specific "on-board" dates in
order to honor their obligations under the letters of credit.

They therefore

provide further support for the conclusion that the banks could have and would
have rejected nonconforming documents such as those at issue here, and that the
discrepancies were material to the GSM-102 guarantees.
In sum, the Government produced a variety of testimonial and

App.28

documentary evidence demonstrating that the Defendants falsified documents in
* order to make them appear to be compliant with the terms of the governing letters
of credit and the USDA program.

The jury was also presented with substantial

evidence that had the bank officials known about those specific types of alterations
they would not have accepted those documents and therefore would not have
entered into the transactions at issue.

We conclude, in light of the evidence

described above and marshalled at trial, that the Government presented sufficient
evidence for the jury to conclude that the Defendants' misstatements were
material.
B.
The Defendants next argue that the Government failed to produce sufficient
evidence to support the jury's conclusion that their scheme "contemplated some
actual harm or injury to their victims,"

United States v. Novak, 443 F.3d 150, 156

(2d Cir. 2006) (emphasis, quotation marks, and citation omitted), a necessary
element of their offenses of conviction.

As we have often observed, for the

purposes of satisfying the elements of mail, wire, or bank fraud, a victim can be
deprived of "property" in the form of "intangible" interests such as the right to
control the use of one's assets.

United States v. Carlo, 507 F.3d 799, 801-02 (2d Cir.

App.29

2007).

"[Misrepresentations or non-disclosure of information" can support a

conviction under the "right to control" theory if "those misrepresentations or non­
disclosures can or do result in tangible economic harm."
850 F.3d 94, 111 (2d Cir. 2017).

United States v. Finazzo,

In particular, this Court has upheld convictions

where misrepresentations "exposed the lender ... to unexpected economic risk."
United States v. Binday, 804 F.3d 558, 571 (2d Cir. 2015).
The Government produced a variety of evidence to support the jury's
finding that the Defendants' falsifications exposed the confirming banks to severe
economic risks across two dimensions.

First, the Government produced

evidence that the modifications to the bills of lading exposed the banks to risk of
default or non-reimbursement from the foreign banks because these modifications
sought to hide the true nature of the non-conforming documents.

See, e.g., J.A.

459 (CoBank representative Womack testifying that "we need to have [compliant]
documents to have the issuing [letter of credit] . . . repay us"); J.A. 1249
(Government expert Professor Byrne stating that only the issuing bank can
propose a change to the terms of a letter of credit).

As recounted above, a

confirming bank must determine if the presentation is compliant with the terms of
a letter of credit, and it can reject non-compliant documents.

App.30

This Circuit has

emphasized in the civil context that documents' compliance with the terms of a
relevant letter of credit should generally be analyzed under a standard of "strict
compliance," a standard followed by a majority of courts.

See Mago Int'l, 833 F.3d

at 272. And the economic significance of the precise accuracy of the documents
(including the bills of lading) was testified to at trial.

See, e.g., J.A. 405 (testimony

of Deutsche Bank representative Effing, noting that accuracy is "[sjuper important.
Because that's how we determine .. . whether all the [letter of credit's] terms and
conditions are fulfilled").
The Defendants highlight that:
Our cases have drawn a fine line between schemes that do no more
than cause their victims to enter into transactions they would
otherwise avoid—which do not violate the mail or wire fraud
statutes—and schemes that depend for their completion on a
misrepresentation of an essential element of the bargain—which do
violate the mail and wire fraud statutes.
Binday, 804 F.3d at 570 (quoting United States v. Shellef, 507 F.3d 82, 108 (2d Cir.
2007)).

According to the Defendants, the victim banks got "what [they]

bargained for" because they made "valid, 98%-guaranteed, interest-bearing loans
to USDA-approved, developing-world foreign banks."
Lillemoe at 24.

Br. Def.-Appellant

But the Defendants ignore that the confirming banks did not

receive "what they bargained for" because they bargained for a set of documents

App.31

that complied with the letters of credit and satisfied the USDA guarantee
requirements.
Second, the modifications increased the risk that the USDA would decline
to reimburse the banks in the event of a foreign bank's default.

The evidence

amply established that the Defendants falsified documents that were not in
accordance with the governing GSM-102 regulations to make them guaranteeeligible.

For example, the Government produced evidence at trial that, on three

bill of lading copies associated with two GSM-102 transactions, the Defendants
changed the printed "on-board" date of October 5, 2008, to October 6, 2008.

For

the transactions at issue to qualify for the already-secured USDA guarantee, the
shipments involved had to have occurred on or after October 6, 2008.

As noted

above, several parties testified to the significance of this change at trial.
instance, USDA official Doster testified as follows:
A: When the [good] is loaded onto the vessel, a bill of lading is
issued. And on that bill of lading is what's called a clean on board
date. The clean on board date is the date that's stamped that is
considered the date of the export.
Q: Is that an important date?
A: This is an important date. For one, it is important because it can
determine ownership . . . The on board date . . . established] that
ownership has passed. Our guarantee specifies the date range . . .

App.32

For

through which you may export. So the on board date on the bill of
lading is the date you would look at to determine if the exporter is
falling within the terms of the guarantee ....
Q: And does the program ever guarantee [with respect to] shipments
before the on board date?
A: No.

No.

J.A. 524; see also 7 C.F.R. §§ 1493.20(d), 1493.60(f) (2012) (GSM-102 regulations
stating that "date[s] of export prior to the date" of the guarantee application "are
ineligible for . . . guarantee coverage" and defining a "date of export" as a bill of
lading's "on board date").

Doster's testimony was supported by that of the

Government's expert, Professor James Byrne, who stated at trial that an "on board
date" is "extremely important in letter of credit practice" and refers only to "the
date [the goods] are loaded on board," and that he had "never" heard of the on­
board date as being a "range" of dates. J.A. 1246-47.

Similar testimony was also

offered as to the significance of the Defendants' "stamping" activity on the banks'
ability to obtain reimbursement from the USDA. See, e.g., J.A. 459.

For example,

the Government presented substantial evidence that in order to submit a claim of
loss to the GSM-102 program, a bank would need to submit a copy of an original bill
of lading. J.A. 1791.
The GSM-102 regulations in effect at the time provided that an assignee

App.33

could not be held liable for an exporter's misrepresentations of which the assignee
lacked knowledge.

See 7 C.F.R. § 1493.120(e) (2012). This provision, however,

does not remotely suggest, as the Defendants would have it, that there was
insufficient evidence that they contemplated any harm to the banks.

As the

district court noted, a confirming bank seeking indemnification pursuant to the
GSM-102 program can rely on this provision only if "the assignee . . . has no
knowledge."

Lillemoe, 242 F. Supp. 3d at 119.

Such a question could certainly

have resulted in "protracted and costly litigation" as to whether the confirming
bank "had knowledge of the nature of the documents it had accepted."

Id.) see

also United States v. Frank, 156 F.3d 332, 335 (2d Cir. 1998) (finding intended harm
proven where defendant waste disposers made misrepresentations to their
customer that "could have subjected the [customer] to fines and to the loss of its
environmental permit").

And the jury did not need to speculate as to the

likelihood of such a dispute: USDA official Doster, who again, was responsible
for ensuring that registrations were properly issued for the GSM-102 program,
specifically testified that the Defendants' changes put the banks at risk of non­
reimbursement.

See J.A. 548; see also J.A. 2586.

The Government presented a great deal of evidence that the Defendants'

App.34

submission of falsified, non-compliant documents exposed the victim banks to the
risk of "actual harm or injury" on multiple dimensions.

We therefore decline to

reverse the jury's determination that the Defendants' scheme contemplated
economic harm.
II.
The Defendants next challenge two jury instructions issued by the district
court, only one of which they objected to at trial.

"[W]e review a properly

preserved claim of error regarding jury instructions de novo," but we will reverse
"only where, viewing the charge as a whole, there was a prejudicial error.'"
United States v. Coplan, 703 F.3d 46,87 (2d Cir. 2012) (internal quotation marks and
citation omitted).

If a defendant fails to object to a jury instruction at trial,

however, a plain error standard of review applies on appeal.
30(d), 52(b).

Fed. R. Crim. P.

With these standards in hand, we consider and reject each of these

challenges in turn.
A.
First, the Defendants challenge the district court's decision to give a "no
ultimate harm" charge to the jury. A "no ultimate harm" instruction advises the
jury that "where some immediate loss to the victim is contemplated by a

App.35

defendant, the fact that the defendant believes (rightly or wrongly) that he will
'ultimately' be able to work things out so that the victim suffers no loss is no excuse
for the real and immediate loss contemplated to result from defendant's
fraudulent conduct."

United States v. Rossomando, 144 F.3d 197,201 (2d Cir. 1998)

(quoting 2 Leonard B. Sand et al., Modern Federal Jury Instructions § 44.01 at 44-35).
Such a charge is "proper where (1) there was sufficient factual predicate to
necessitate the instruction, (2) the instruction required the jury to find intent to
defraud to convict, and (3) there was no evidence that the instruction caused
Confusion."

United States v. Lange, 834 F.3d 58, 79 (2d Cir. 2016).

The district

court declined to include a "no ultimate harm" charge in the preliminary jury
instructions, but it changed course after the Defendants' attorneys made several
references at trial to the fact that the banks were ultimately insulated against
immediate financial loss by the USDA guarantees.

See, e.g., J.A. 501 (calling on

witness to confirm that banks were "covered 101 percent on this deal").
The district court's "no ultimate harm" instruction satisfies all three of the
above-mentioned factors.

First and foremost, the Defendants' trial strategy,

which focused on the fact that the banks were "ultimately" reimbursed for their
losses by the USDA, see Br. Def.-Appellant Lillemoe at 42; Br. Def.-Appellant

App.36

Calderon at 52, created the "factual predicate" necessitating the charge.

Lange,

834 F.3d at 79. The district court simply instructed the jurors that they should not
acquit on the basis of the Defendants' asserted belief that things would all work
out in the end—that the USDA would, in any event, guarantee the transactions—
if they nonetheless found that the Defendants intended to deceive the banks as to
the economic risks involved ex ante. That instruction comports with our holding
in United States v. Ferguson, 676 F.3d 260 (2d Cir. 2011), where we upheld a "no
ultimate harm" instruction that "ensured that jurors would not acquit if they
found that the defendants knew the [transaction] was a sham but thought it
beneficial for the stock price in the long run."

Id. at 280.

In Ferguson, we

reasoned that "the immediate harm in such a scenario is the denial of an investor's
right to control her assets by depriving her of the information necessary to make
discretionary economic decisions," and that the absence of ultimate harm to the
stock price did not vitiate that more immediate harm to victims.

Id. (internal

quotation marks and citation omitted). We reason similarly here.
The second and third factors are even more easily satisfied.

The district

court's instruction indisputably required the jury to find intent to defraud to
convict.

See, e.g., J.A. 1310 ("A genuine belief that the scheme never exposed the

App.37

victim to loss or risk of loss in the first place would demonstrate a lack of
fraudulent intent.").
confusion.

Finally, there was no evidence that the instruction caused

Cf. Rossomando, 144 F.3d at 199,203 (jury request that the court clarify

its "no ultimate harm" instruction demonstrated "evident confusion" resulting
from instruction).

Given the foregoing analysis, we find no error in the district

court's "no ultimate harm" instruction under the circumstances of this case.
B.
The Defendants also challenge—without having done so below—the district
court's jury instructions regarding the elements of bank fraud.

Because the

Defendants did not object to this portion of the jury charge at trial, we review the
district court's instructions for plain error here.

See Fed. R. Crim. P. 52(b); accord

Johnson v. United States, 520 U.S. 461, 466-67 (1997). Under the plain error
standard:
[A]n appellate court may, in its discretion, correct an error not raised
at trial only where the appellant demonstrates that (1) there is an
error; (2) the error is clear or obvious, rather than subject to reasonable
dispute; (3) the error affected the appellant's substantial rights, which
in the ordinary case means it affected the outcome of the district court
proceedings; and (4) the error seriously affects the fairness, integrity
or public reputation of judicial proceedings.
United States v. Marcus, 560 U.S. 258, 262 (2010) (internal quotation marks and
citation omitted); see also United States v. Botti, 711 F.3d 299, 308 (2d Cir. 2013).
App.38

Under 18 U.S.C. § 1344, bank fraud is defined as the knowing execution of
"a scheme or artifice—(1) to defraud a financial institution; or (2) to obtain any of
the moneys, funds, credits, assets, securities, or other property owned by, or under
the custody or control of, a financial institution, by means of false or fraudulent
pretenses, representations, or promises/'

The district court instructed the jury on

these elements, specifically explaining that the defendant must have "executed or
attempted to execute the scheme with the intent to obtain money or property from
Deutsche Bank."

J.A. 1315 (emphasis added).

With respect to that intent

requirement, the court elaborated that "the Government must prove that the
defendant you are considering executed or attempted to execute the scheme
knowingly and willfully and with the intent to obtain money or property owned
by or under the custody or control of Deutsche Bank." J.A. 1316.
The Defendants argue that the district court should have instructed the jury
that a bank fraud conviction requires a finding that the defendant "contemplated
harm or injury to the victim."

Br. Def.-Appellant Calderon at 58.

In advancing

this argument, the Defendants rely on Second Circuit precedent stating that "[t]he
failure to instruct on an essential element of the offense generally constitutes plain
error." United States v. Javino, 960 F.2d 1137,1141 (2d Cir. 1992).

App.39

In response, the

Government asserts that, even assuming Second Circuit precedent requires the
instruction the Defendants' belatedly argue should have been provided, the
Supreme Court's decision in Loughrin v. United States has adopted a more limited
construction of the elements of bank fraud.

See 573 U.S. 351, 356 (2014) (holding

that the Government need not prove that a defendant charged with § 1344(2)
intended to defraud a bank); see also United States v. Bouchard, 828 F.3d 116,124 (2d
Cir. 2016).

The parties dispute whether Loughrin affects the Second Circuit's

preexisting interpretation of the bank fraud statute, see United States v. Nkansah,
699 F.3d 743, 748 (2d Cir. 2012) (holding that "intent to victimize a bank" is an
element of bank fraud), and whether the Defendants' proposed instruction was
required under either interpretation.
We need not wade into this debate.

Even assuming arguendo that the

district court erred in not including the Defendants' proposed instruction, the
failure to include that instruction did not constitute plain error under the standard
articulated above. Most obviously, the absence of the proposed instruction did
not affect the Defendants' "substantial rights," Fed. R. Crim. P. 52(b), because the
jury acquitted the Defendants on the substantive bank fraud charge, convicting
them only of several substantive wire fraud charges and conspiracy to commit

App.40

wire fraud and bank fraud. Because we have already concluded that there was
sufficient evidence to sustain the Defendants' convictions for wire fraud, see supra
Part I, their convictions for conspiracy could have rested on those grounds alone.
The bank fraud instructions therefore did not prejudice the Defendants.
Ferguson, 676 F.3d at 277.

See

Moreover, given the district court's detailed

instructions on the elements of bank fraud that tracked the language of the bank
fraud statute, as well as the ambiguities regarding the elements of bank fraud in
the caselaw described above, any error in the jury instructions was certainly not
"clear or obvious."

Marcus, 560 U.S. at 262.

Finally, the Defendants have not

explained how any alleged error in the jury instructions could have "seriously
affect[ed] the fairness, integrity or public reputation of judicial proceedings."

Id.

Accordingly, we reject the Defendants' argument that the district court plainly
erred in instructing the jury on the elements of bank fraud.
III.
The Defendants next argue that their convictions should be vacated because
the district court issued an improper jury charge encouraging the jury to continue
deliberating after reaching an apparent deadlock.

A defining characteristic of a

so-called Allen charge is that "it asks jurors to reexamine their own views and the

App.41

views of others."

Spears v. Greiner, 459 F.3d 200, 204 n.3 (2d Cir. 2006).

This

Court reviews a district court's decision to give an Allen charge for abuse of
discretion.

United States v. Vargas-Cordon, 733 F.3d 366, 377 (2d Cir. 2013).

During their deliberations, the jurors sent out two notes to the court
indicating that they were struggling to reach a unanimous verdict on some of the
counts charged in the indictment. After almost a full week, the jury announced
via a third note to the court that it had "concluded [its] deliberations."

J.A. 1352.

After consulting with the jury foreman, the district court determined that the jury
was still deadlocked on some counts and decided to give a modified Allen charge.
The district court instructed the jury, inter alia, that:
It is desirable for you to keep deliberating and to reach a verdict if you
can conscientiously do so.
However, under no circumstances
should any juror abandon his or her conscientious judgment. It is
understandable and quite common for jurors to disagree....
[T]here appears to be no reason to believe if the charge were to be
submitted to another jury, that jury would be more intelligent, more
impartial or more competent to decide it than you are. However, I
stress to you, that your verdict must reflect the conscientious
judgment of each juror. Under no circumstances should any jur[or]
yield his or her conscientious judgment. Do not ever change your
mind because the other jurors see things differently or just to get the
case over with.
J.A. 1358.

App.42

"An Allen charge is unconstitutional if it is coercive in the context and
circumstances under which it is given." United States v. Haynes, 729 F.3d 178,192
(2d Cir. 2013).

Considering the "different factors" we have enumerated to

determine an Allen charge's "coercive effect," Vargas-Cordon, 733 F.3d at 377, we
are confident that the district court's carefully crafted Allen charge did not
constitute reversible error. At the start, we recognize a distinction between "the
original Allen charge," which conveys "the suggestion that jurors in the minority
should reconsider their position," and the modem trend toward "'modified'
Allen charges that do not contrast the majority and minority positions."
459 F.3d at 204 n.4.

Spears,

Neither the Government nor the Defendants contest that the

district court gave a "modified" Allen charge, rather than the traditional Allen
charge, in this case.

A "modified" Allen charge is already a less explosive version

of the "dynamite" Allen charge, and therefore carries with it a lesser threat of
coercing jurors to abandon their conscientious beliefs. Id.
Moreover, the district court's Allen charge contained all of the safeguards,
and none of the pitfalls, that we have previously recognized as relevant to an
assessment of its propriety.

For instance, "we generally expect that a trial judge

using an Allen-type supplemental charge will . . . both urge jurors to try to

App.43

convince each other and remind jurors to adhere to their conscientiously held
views."

United States v. McDonald, 759 F.3d 220, 225 (2d Cir. 2014).

The district

court did just that: "repeatedly wam[ing] the jurors not to surrender their
conscientiously held beliefs, which is an instruction we have previously held to
mitigate greatly a charge's potential coercive effect."
378.

Vargas-Cordon, 733 F.3d at

Moreover, the district court did not inform the jury that it was required to

reach an agreement; it did just the opposite.
fail to agree.").

See J.A. 1358 ("[I]t is your right to

It thereby avoided the "incorrect and coercive" impression that

"the only just result was a verdict." Haynes, 729 F.3d at 194; see also id. at 192-94
(holding that an Allen charge was impermissibly coercive where the court stated
that it "believe[d]" that the jury would "arrive at a just verdict on Monday")
(internal quotation marks omitted).
The Defendants claim that the district court's Allen charge was improper
because it failed to reinstruct the jury on the burden of proof.

We note first that

while the court did not mention the burden of proof specifically in its Allen charge,
it did remind tire jury to "follow all the instructions" it had "[previously] given,"
referencing the written jury instructions that the jury had on hand, which
themselves recited the burden of proof. J.A. 1358. Moreover, this factor, on its

App.44

own, is not dispositive proof of coercion.

See Vargas-Cordon, 733 F.3d at 377.

The

district court's Allen charge encouraged the members of the jury to continue
deliberating on the deadlocked counts to see if a verdict could be reached without
coercing them into abandoning their consciously held beliefs regarding the
Defendants' guilt or innocence.

As such, it resembles other Allen charges we

have previously approved and its issuance was not an abuse of discretion.
IV.
Finally, the Defendants argue the district court acted improperly in ordering
Lillemoe and Calderon to pay $18,807,096.33 in restitution with respect to five
GSM-102 loans on which the Russian Bank, IIB, defaulted.

This sum included

$18,501,353 to be paid to the USDA, which had reimbursed CoBank and Deutsche
Bank for 98% of their losses on these transactions, see 18 U.S.C. § 3664(j)(l) ("If a
victim has received compensation from insurance or any other source with respect
to a loss, the court shall order that restitution be paid to the person who provided
or is obligated to provide the compensation."), and $304,743.33 to be paid to
CoBank, which included $137,422 for losses associated with the transactions and
$168,321.33 for costs and attorneys' fees incurred in connection with the
investigation and prosecution of the case, see id. § 3663A(b)(4) (authorizing

App.45

reimbursement of "the victim for... expenses incurred during participation in the
investigation or prosecution of the offense or attendance at proceedings related to
the offense").
discretion.

We review a district court's order of restitution for abuse of

United States v. Pearson, 570 F.3d 480, 486 (2d Cir. 2009).

abuses its discretion when it rests its decision on an error of law."

"A court

United States

v. Archer, 671 F.3d 149,169 (2d Cir. 2011).
"The Mandatory Victims Restitution Act ('MVRA'), 18 U.S.C. § 3663A, is
one of several federal statutes empowering courts to impose restitution obligations
on criminal defendants."
2015).

United States v. Thompson, 792 F.3d 273, 277 (2d Cir.

Under the MVRA, in the case of an "offense resulting in . . . loss or

destruction of property," the court shall "order restitution to each victim in the full
amount of each victim's losses as determined by the court and without
consideration of the economic circumstances of the defendant."
3663A(b)(l), 3664(f)(1)(A).

See 18 U.S.C. §§

Where intended loss is incorporated to punish a

culpable defendant, "restitution is designed to make,the victim whole... and must
therefore be based only on the actual loss caused by the scheme."

United States v.

8 The Court also ordered forfeiture in the amount of $1,543,287.60 from Lillemoe
and $63,509.97 from Calderon. The Defendants do not challenge the forfeiture amount.
App.46

Lacey, 699 F.3d 710, 721 (2d Cir. 2012) (citation omitted).
The Defendants argue that the district court's order was improper because
CoBank and Deutsche Bank do not qualify as "victims" under the Act.9

A

"victim" for the purposes of the MVRA is "a person directly and proximately harmed
as a result of the commission of an offense for which restitution may be ordered."
18 U.S.C. § 3663A(a)(2) (emphasis added).

To qualify as a "victim," then, a party

must have endured a financial loss that was "directly and proximately" caused by
a defendant's fraud.

See United States v. Paul, 634 F.3d 668, 676 (2d Cir. 2011) ("In

determining the proper amount of restitution, a court must keep in mind that the
loss must be the result of the fraud." (internal quotation marks, brackets, and
citation omitted)).
"[P]roximate cause, as distinct from actual cause or cause in fact"
(commonly labeled "but-for" causation) is a "flexible concept" that "defies easy
summary."

Paroline v. United States, 572 U.S. 434, 444 (2014) (internal quotation

marks and citation omitted); see also CSX Transp., Inc. v. McBride, 564 U.S. 685, 701
(2011) (labeling proximate cause "a term notoriously confusing"). "Proximate

9 The Government bears the burden of establishing by a preponderance of the
evidence that each individual it claims is entitled to restitution was actually a "victim."
Archer, 671 F.3d at 173.
App.47

cause" is in essence a "shorthand for a concept: Injuries have countless causes, and
not all should give rise to legal liability."

CSX Transp., 564 U.S. at 692.

The

central goal of a proximate cause requirement is to limit the defendant7s liability
to the kinds of harms he risked by his conduct, the idea being that if a resulting
harm was too far outside the risks his conduct created, it would be unjust or
impractical to impose liability.

See Prosser & Keeton, The Law of Torts 281 (5th

ed. 1984).
We have accordingly viewed the MVRA's proximate cause requirement as
a "tool[]" to both "limit a person's responsibility for the consequences of that
person's own acts" and to promote efficiency in the sentencing process.

United

States v. Reifler, 446 F.3d 65, 135 (2d Cir. 2006).10 When interpreting the MYRA,
we have clarified that "a misstatement or omission" is the "proximate cause" of an
investment loss for the purposes of imposing restitution, "if the risk that caused
the loss was within the zone of risk concealed by the misrepresentations and
omissions alleged by a disappointed investor." United States v. Marino, 654 F.3d
310, 321 (2d Cir. 2011) (internal quotation marks and citation omitted).

The

10 The Supreme Court has indicated that the definition of "proximate cause" may
vary depending on the statute in question. See CSX Transp., 564 U.S. at 700 (recognizing
a unique test for "proximate causation applicable in FELA suits").
App.48

MVRA's proximate causation requirement is therefore "akin to the wellestablished requirement that there be 'loss causation' in securities-fraud cases and
not merely transaction ('but-for') causation." Archer, 671 F.3d at 171 n.16; see also
Marino, 654 F.3d at 321 (equating "proximate causation" under the MVRA to "loss
causation" in the securities context). And to establish loss causation, "a plaintiff
must allege that the subject of the fraudulent statement or omission was the cause
of the actual loss suffered." Lentell v. Merrill Lynch & Co., 396 F.3d 161,173 (2d Cir.
2005) (internal quotation marks, ellipses, and citation omitted).11
Given the above standard, we are confident that the banks do not qualify as
"victims" under the MVRA because the Defendants did not proximately cause
their losses. As catalogued above, the Defendants fraudulently altered shipping
documents in order to make them facially compliant with the relevant letters of
credit.

Their fraud concealed two risks from the domestic banks: (1) that the

issuing (foreign) banks would refuse to honor the letters of credit on the ground
that the domestic banks had failed to demand a valid, conforming presentation;

11 To take one example from the securities context, in Citibank, N.A. v. K-H Corp.,
968 F.2d 1489 (2d Cir. 1992), we dismissed a civil claim asserting violations of securities
laws where the complaint alleged that a fraud "induced" the plaintiff to enter into a
transaction but failed to allege facts supporting a "causal connection between the fraud
alleged and the subsequent loss that it suffered." Id. at 1492,1495.
App.49

and (2) that the USDA would decline to reimburse the banks for their losses
because the transactions were not compliant with the GSM-102 program
requirements.
materialized.

See supra Part I.B.

Neither of these risks even arguably

Instead, the foreign banks defaulted on their obligations due to

their financial inability to fulfill them following a global financial crisis.

The

fraudulent shipping documents had no bearing whatsoever on the foreign banks'
potential to default in such circumstances, which is the risk that actually
materialized here.
This case is thus distinct from those contexts where we have found that a
defendant's fraud "proximately caused" an injury for purposes of the MYRA. To
take one example, in Paul, the defendant artificially inflated the value of his stock
holdings in order to secure a loan.

634 F.3d at 670.

Once his scheme was

discovered, the price of those holdings plummeted, and he was unable to repay
his loans. Id. We concluded that the defendant's fraud "proximately caused"
his lenders' losses (and that they were therefore "victims" under the MYRA
entitled to restitution equaling the full amount of the loan) because his
misrepresentations bore directly on "the making of the loans in the first instance,"
even if "market forces may have contributed to the decline in" the value of the

App.50

collateral. Id. at 677-78. Put differently, because Paul misrepresented his own
creditworthiness, his financial inability to repay his loans was quite clearly within
the zone of risk concealed by his fraud.12
Here, by contrast, the Defendants' misrepresentations were not even
arguably related to CoBank's and Deutsche Bank's assessment of the foreign
banks' creditworthiness. We can say this with complete certainty because before the
Defendants presented the fraudulent documents to the confirming banks, the
USDA and the banks had pre-approved the relevant foreign banks for participation
in these transactions.

This pre-approval process included the foreign banks'

submission of three years of audited financial statements, and a "rigorous"
independent analysis spearheaded by the USDA's Risk and Asset Management
branch that could take "six or seven months" to complete. J.A. 595; see also S.A.
11 (the district court noting that the bank made its determination as to the foreign

12 Thus, if the Defendants here had, say, misrepresented the value of collateral
held by the foreign banks and those banks had then defaulted on their loans, we would
not hesitate to conclude that they "proximately caused" the banks' losses, even if the
banks' ability to repay the loans was also affected by market forces. Cf. United States v.
Turk, 626 F.3d 743, 748-51 (2d Cir. 2010) (affirming the district court's loss calculation as
to the total value of a loan where the defendant lied to lenders as to whether they were
secured creditors and never repaid them their principal).
App.51

banks' likelihood of default "before any of the altered documents were
presented").
The Government argues that the banks would not have gone through with
the transactions without the Defendants' involvement, and therefore that the
Defendants proximately caused the banks' losses on those transactions.

This

argument confuses "but-for" causation with proximate causation. To take one
analogous example from the securities context, in Bennett v. United States Trust Co.,
770 F.2d 308 (2d Cir. 1985), the plaintiffs "went to [a bank] with the idea of
borrowing money to purchase public utility stock already in mind" when that
bank misinformed them that the Federal Reserve's "margin rules" did not apply
to their intended stock purchases. Id. at 313-14. The bank's error allowed the
plaintiffs to borrow money to purchase the stock, but when the market value of
the stock subsequently decreased, the plaintiffs were unable to repay their loans.
Id. at 310. We held that even if the bank's misrepresentation regarding the margin
requirements was a "but-for" cause of the plaintiffs' investment, the plaintiffs had
still failed to plead loss causation because "the loss at issue was caused by the
[plaintiffs']

own

misrepresentation."

unwise

investment

Id. at 314.

decisions,

not

by

[the

bank's]

Similarly, here, the Defendants presented

App.52

fraudulent documents to the confirming banks after those Banks had already
decided to offer loans to the relevant foreign banks pursuant to comprehensive
financial analyses conducted by the confirming banks and the USDA.

That

financial decision—to offer the foreign loans—was not influenced by the
Defendants' misconduct.
The MVRA provides redress to the victims of fraud, but it does not supply
a windfall for those who independently enter into risky financial enterprises
through no fault of the fraudsters. As we stated in Archer:

"[I]f a person gives

the defendant his money to bet, knowing that the bet might lose, his later loss, for
purposes of restitution, is, in this fundamental sense, caused not by the defendant
accepting his money but by the outcome of the bet."

671 F.3d at 171.

The

domestic banks here made a bet that the foreign banks would be able to repay the
relevant loans with interest, and their assessments as to die advisability of that bet
were completely unrelated to the risks concealed by the Defendants' fraud.

The

banks therefore do not qualify as "victims" under the MVRA and the district court
erred in finding to the contrary. Accordingly, neither the USDA nor the banks
are entitled to any restitution for losses caused by participation in the transaction

App.53

or for expenses incurred during participation in the investigation, prosecution, or
related proceedings. The entire restitution award must be reversed.
CONCLUSION
We have considered the parties' remaining arguments and find them to be
without merit. For the foregoing reasons, we AFFIRM the district court's
judgments of conviction but REVERSE the restitution orders.

We REMAND the

case with instructions that the judgments be amended to omit that portion stating
that the defendant must pay restitution.

App.54

Case 17-1956, Document 311, 03/10/2020, 2798057, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
10th day of March, two thousand twenty.

United States of America,
ORDER

Appellee,
v.

Docket No: 17-1956, 17-1969,
17-2844, 17-2866

Pablo Calderon, Brett C. Lillemoe,
Defendants-Appel lants.

Appellant Pablo Calderon, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

App.55

18 U.S.C. § 1343
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise any scheme or artifice to
defraud, or for obtaining money or property by means of false or fraudulent
pretenses, representations, or promises, transmits or causes to be
transmitted by means of wire, radio, or television communication in
interstate or foreign commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or artifice, shall be fined
under this title or imprisoned not more than 20 years, or both. If the
violation occurs in relation to, or involving any benefit authorized,
transported, transmitted, transferred, disbursed, or paid in connection
with, a presidentially declared major disaster or emergency (as those terms
are defined in section 102 of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act (42 U.S.C. 5122)), or affects a financial
institution, such person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.

28 U.S.C. § 1652
§ 1652. State laws as rules of decision
The laws of the several states, except where the Constitution or treaties of
the United States or Acts of Congress otherwise require or provide, shall
be regarded as rules of decision in civil actions in the courts of the United
States, in cases where they apply.

App.56

C.R.S.A. § 4-5-107
§ 4-5-107. Confirmer, nominated person, and adviser

(a) A confirmer is directly obligated on a letter of credit and has the rights
and obligations of an issuer to the extent of its confirmation. The confirmer
also has rights against and obligations to the issuer as if the issuer were
an applicant and the confirmer had issued the letter of credit at the request
and for the account of the issuer.

C.R.S.A. §4-5-108
§ 4-5-108. Issuer's rights and obligations

(a) Except as otherwise provided in section 4-5-109, an issuer shall honor a
presentation that, as determined by the standard practice referred to in
subsection (e) of this section, appears on its face strictly to comply with the
terms and conditions of the letter of credit. Except as otherwise provided in
section 4-5-113 and unless otherwise agreed with the applicant, an issuer
shall dishonor a presentation that does not appear so to comply.

App.57

C.R.S.A. § 4-5-109
§ 4-5-109. Fraud and forgery

(a) If a presentation is made that appears on its face strictly to comply with
the terms and conditions of the letter of credit, but a required document is
forged or materially fraudulent, or honor of the presentation would
facilitate a material fraud by the beneficiary on the issuer or applicant:
(1) The issuer shall honor the presentation, if honor is demanded by (i) a
nominated person who has given value in good faith and without notice of
forgery or material fraud, (ii) a confirmer who has honored its confirmation
in good faith, (iii) a holder in due course of a draft drawn under the letter
of credit which was taken after acceptance by the issuer or nominated
person, or (iv) an assignee of the issuer's or nominated person's deferred
obligation that was taken for value and without notice of forgery or
material fraud after the obligation was incurred by the issuer or nominated
person; and
(2) The issuer, acting in good faith, may honor or dishonor the presentation
in any other case.
OFFICIAL COMMENT

1. This recodification makes clear that fraud must be found either in the
documents or must have been committed by the beneficiary on the issuer
or applicant. See Cromwell v. Commerce Energy Bank, 464 So.2d 721 (La.
1985).
Secondly, it makes clear that fraud must be "material." Necessarily courts
must decide the breadth and width of "materiality." The use of the word
requires that the fraudulent aspect of a document be material to a
purchaser of that document or that the fraudulent act be significant to the
participants in the underlying transaction. Assume, for example, that the
beneficiary has a contract to deliver 1,000 barrels of salad oil. Knowing that
it has delivered only 998, the beneficiary nevertheless submits an invoice
showing 1,000 barrels. If two barrels in a 1,000 barrel shipment would be
an insubstantial and immaterial breach of the underlying contract, the
beneficiary's act, though possibly fraudulent, is not materially so and would
not justify an injunction. Conversely, the knowing submission of those

App.58

invoices upon delivery of only five barrels would be materially fraudulent.
The courts must examine the underlying transaction when there is an
allegation of material fraud, for only by examining that transaction can one
determine whether a document is fraudulent or the beneficiary has
committed fraud and, if so, whether the fraud was material.
Material fraud by the beneficiary occurs only when the beneficiary has no
colorable right to expect honor and where there is no basis in fact to support
such a right to honor. The section indorses articulations such as those
stated in Intraworld Indus, v. Girard Trust Bank, 336 A.2d 316 (Pa. 1975),
Roman Ceramics Corp. u. People's Nat. Bank, 714 F.2d 1207 (3d Cir. 1983),
and similar decisions and embraces certain decisions under Section 5-114
that relied upon the phrase "fraud in the transaction." Some of these
decisions have been summarized as follows in Ground Air Transfer v.
Westate's Airlines, 899 F.2d 1269, 1272-73 (1st Cir. 1990):
We have said throughout that courts may not "normally" issue an
injunction because of an important exception to the general "no injunction"
rule. The exception, as we also explained in Itek, 730 F.2d at 24-25,
concerns "fraud" so serious as to make it obviously pointless and unjust to
permit the beneficiary to obtain the money. Where the circumstances
"plainly" show that the underlying contract forbids the beneficiary to call a
letter of credit, Itek, 730 F.2d at 24; where they show that the contract
deprives the beneficiary of even a "colorable" right to do so, id., at 25; where
the contract and circumstances reveal that the beneficiary's demand for
payment has "absolutely no basis in fact," id.; see Dynamics Corp. of
America, 356 F. Supp. at 999; where the beneficiary's conduct has "so
vitiated the entire transaction that the legitimate purposes of the
independence of the issuer's obligation would no longer be served," Itek, 730
F.2d at 25 (quoting Roman Ceramics Corp. v. Peoples National Bank, 714
F.2d 1207, 1212 n.12, 1215 (3d Cir. 1983) (quoting Intraworld Indus., 336
A.2d at 324-25)); then a court may enjoin payment.
2. Subsection (a)(2) makes clear that the issuer may honor in the face of the
applicant's claim of fraud. The subsection also makes clear what was not
stated in former Section 5-114, that the issuer may dishonor and defend
that dishonor by showing fraud or forgery of the kind stated in subsection
(a). Because issuers may be liable for wrongful dishonor if they are unable
to prove forgery or material fraud, presumably most issuers will choose to
honor despite applicant's claims of fraud or forgery unless the applicant
procures an injunction. Merely because the issuer has a right to dishonor
and to defend that dishonor by showing forgery or material fraud does not

App.59

mean it has a duty to the applicant to dishonor. The applicant's normal
recourse is to procure an injunction, if the applicant is unable to procure an
injunction, it will have a claim against the issuer only in the rare case in
which it can show that the issuer did not honor in good faith.

App.60

GSM-102
TERMS AND PROCEDURES FOR LETTER OF CREDIT REFINANCING

INTRODUCTION
A.

INTERNATIONAL INDUSTRIAL BANK (“Borrower”) has been approved for participation in
the Export Credit Guarantee Program (GSM-102) of the Commodity Credit Corporation (“CCC”),
of the U.S. Department of Agriculture.

B.

COBANK, ACB (“COBANK”) has extended a line of credit to Borrower (the “Credit Extension”)
with respect to the refinancing of Borrower’s obligations under certain letters of credit (the
“Repayment Obligations”) to be issued by Borrower under GSM-102 allocations.

C.

These terms and procedures (the “Terms”) shall remain in effect, so long as COBANK continues to
extend credit to the Borrower under the GSM-102 program. Provided, however, that the Terms may
be amended by agreement between the parties hereto, and that either party may terminate its
agreement hereto at any time.
Section 1. Operating Procedures

1.1
Honoring the Letters of Credit. Upon receipt by COBANK of the documents called
for under a particular letter of credit pursuant to the Credit Extension, CoBank will honor the drawing in
accordance with the letter of credit. COBANK shall be authorized, however, to waive receipt of any or all of
the documents required under item 3 of the Special Instructions to Advising Bank and Repayment
Obligation (the “Special Instructions”), as set forth in a letter to Borrower, as revised and amended from
time to time, advising the amount of the GSM-102 Line of Credit and outlining the Special Instructions. The
honoring of a drawing and the disbursement of the funds shall constitute an advance (“Loan”) under the line
of credit and obligate Borrower to repay the Loan in accordance with the provisions of the letter of credit
and the Terms. At the time of the drawing, COBANK will notify Borrower using tested telex, SWIFT, or
facsimile, of the exact amount loaned, the principal repayment dates, the dates interest is due and the rate of
interest to be charged for the first “Interest Period” as described below.
1.2
Prepayments. Any Loan hereunder may be prepaid on any Interest Payment Date
(as defined in Section 2.1) upon two business days advance notice. With respect to prepayments made other
than on the Interest Payment Date, the Borrower agrees to pay to CoBank a prepayment surcharge in
accordance with methodology established by CoBank which shall include administrative costs and the
present value of any funding losses incurred by COBANK as a result of such payment.
Section 2. The Loans
2.1
Definitions. For purposes hereof (i) “Interbank Offered Rate” shall mean, in
relation to any Interest Period the rate per annum resulting from the arithmetic average of the London
Interbank Offered Rate (“LIBOR”) as quoted by REUTERS, British Bankers Association—Interest
Reference Rates, at approximately 11:00 a.m. (London time) two Banking Days prior to the first day of such
Interest Period (or, in the case of the initial Interest Period for such Loan, the rate per annum quoted on the
date of the payment of the draft), for deposits in dollars for a term equal to such Interest Period and in

LGjw/G/agreement/(Revised 6/99)

App.61

GSM-102 Terms and Procedures for Letter of Credit Refinancing
Page -2-

amounts comparable to the principal amount outstanding in such Interest Period. On the same date that
CoBank determines the applicable interest rate for an Interest Period, CoBank shall give notice to the
Borrower using tested telex, SWIFT, or facsimile, of such rate, which rate, absent manifest error, shall be
final, conclusive, and binding on Borrower; (ii) “Merest Period” shall mean, as to any Loan, the period
from the date of the Loan to the first Merest Payment Date thereafter in respect of any Loan, and thereafter
each period from the last day of the immediately preceding Merest Period for the Loan to the next
succeeding Merest Payment Date for the Loan; (iii) ‘Merest Payment Date” shall mean each date which is
an integral multiple of three months or six months, as selected mutually by Borrower and COBANK, after the
earlier of the Date of Export (as hereinafter defined) or the date of payment of the draft that shall give rise to
the Loan, except that if any such date is not a Banking Day, the respective Merest Payment Date in respect
of the Loan shall be the next preceding Banking Day; (iv) “Banking Day” shall mean a day on which
dealings in U.S. dollar deposits are carried out in the London interbank market and which is also a day on
which commercial banks are open for business in New York; and (v) “Date of Export” shall mean the
onboard date of an ocean bill of lading or airway bill or onboard ocean carrier date of an Mermodal bill of
lading, or if exported by rail or track, the date of entry shown on an authenticated landing certificate or
similar document issued by an official of the government of the importing country.
2.2
Delinquent Payments. Overdue principal and, to the extent permitted by applicable
law, overdue Merest, shall bear Merest at a rate of one percent per annum in excess of the rate in effect for
each Merest Period.
2.3
Change of Law, etc. If due to either (i) the introduction of or any change in, or in
the Merpretation of any law or regulation (including, without limitation, the imposition or increase of any
reserve or similar requirement) or (ii) the compliance with any direction from or requirement of any
governmental or monetary authority whether or not having the force of law, there shall be any increase in
the cost to COBANK of agreeing to make or making, funding or maintaining any advance, or any reduction
in the amounts received or receivable by CoBank hereunder (such increase or reduction hereinafter
“Increased Cost”) then Borrower shall from time to time pay to COBANK additional amounts sufficient to
indemnify CoBank against such Increased Cost. A certificate as to the amount of such Increased Cost,
submitted to Borrower by CoBank, shall be conclusive and binding for all purposes.
2.4
Taxes. All payments made by Borrower pursuant to Repayment Obligations under
the Credit Extension will be without any deduction or withholding for or on account of any taxes in the
country of Borrower or any political jurisdiction thereof, whether presently existing or hereafter arising. If
any such withholding should be required by applicable law, Borrower will pay COBANK such additional
amounts as may be necessary to ensure that the net amount received by COBANK under any given letter of
credit reimbursement agreement will equal the full amount CoBank would have received had no
withholding or deduction on account of taxes been required by law, and Borrower will promptly provide to
CoBank a copy of the related tax receipt.

Section 3. Events of Default
3.1
Events and Rights. If any of the following “events of default” shall occur and be
continuing for any reason: (i) default shall be made in the payment when due of the principal of or Merest
on any Loan or any other amount payable by Borrower hereunder; or (ii) Borrower shall default in the due
LGjw/G/agreement/(Reviscd 6/99)

App.62

GSM-102 Terms and Procedures for Letter of Credit Refinancing
Page -3-

performance of or compliance with any other agreement herein or between CoBank and Borrower or any
letter of credit, or any representation or warranty by Borrower herein or therein shall prove to have been
incorrect, or shall be breached, in any material respect; or (iii) Borrower shall become insolvent or unable to
pay its debts as they become due or proceedings shall be instituted by or against Borrower in respect of
bankruptcy or other relief for debtors or creditors generally, or any government or other supervisory
authority shall, or shall take steps to, assume control or supervision over Borrower’s assets with a view to
conservation or liquidation thereof; or (iv) any license (including, without limitation, foreign exchange
licenses from appropriate authorities in Russia) consent, authorization, registration or approval now or
hereafter necessary to enable Borrower to comply with its obligations incurred herein, or under any letter of
credit, shall be modified, revoked, withdrawn or withheld; THEREUPON, in any such case, by notice to
Borrower, CoBANK may declare the principal of and all accrued interest on the Loans to be forthwith due
and payable, without demand, presentment, protest or other notice, all of which are hereby waived by
Borrower. Borrower shall indemnify CoBank and hold CoBank harmless against any loss or expense
incurred by it (including any funding costs relating to collection) as a consequence of any payment default
(whether upon stated maturity, acceleration or otherwise) in respect of this Agreement, the Loans, the letters
of credit or any other document submitted in connection herewith.
Section 4. Jurisdiction
4.1
U.S. Jurisdiction. In case COBANK shall bring any judicial proceeding in relation to
any matter arising hereunder or under any letter of credit or document submitted in connection herewith
including any judgment in relation thereto, Borrower hereby irrevocably submits generally and
unconditionally to the nonexclusive jurisdiction of the courts of the State of Colorado and the U.S. District
Court for the District of Colorado. In the event Borrower does not maintain an agent for service of process
in the State of Colorado or said agent cannot, with reasonable diligence, be located, Borrower agrees that
service of process maybe made by registered or certified mail (or equivalent) addressed to Borrower at: 23,
Bldb. 1, Bolshaya Dmitrovka Street, Moscow 125009, Russia, Attention: Mr. Alexander Akhverdyan.
In any such proceeding, Borrower irrevocably waives, to the fullest extent permitted by law, any objection
which it may now or hereafter have to the laying of venue of any suit, action or proceeding arising out of or
relating hereto, or to any letters of credit or documents submitted in connection herewith, brought in any of
the aforementioned courts, and hereby further irrevocably waives any claim that any such suit, action or
proceeding brought in any such court has been brought in an inconvenient forum. To the extent that
Borrower may be entitled, in any jurisdiction in which judicial proceedings may at any time be commenced
with respect hereto or to any letter of credit or other document submitted in connection herewith to claim for
itself or its revenues, assets or properties immunity (whether by reason or sovereignty or otherwise) from
suit, from the jurisdiction of any court (including but not limited to any court of the United States of
America or the State of Colorado) Borrower hereby irrevocably agrees not to claim and hereby irrevocably
waives such immunity.
Section 5. Miscellaneous
5.1
Currency. Credit granted hereunder or under any related letter of credit or other
document constitutes a credit arrangement in which the specification of U.S. dollars or lawful currency of
the United States of America, and the payment in immediately available funds as above prescribed are of the
essence, and U.S. dollars shall be the currency of account in all events.
LGjw/G/agreemcnt/(Revised 6/99)

App.63

GSM-102 Terms and Procedures for Letter of Credit Refinancing
Page -4-

5.2
Costs and Expenses. Borrower will reimburse CoBank or the CCC for its
out-of-pocket expenses (including legal fees and disbursements of counsel) incurred in connection with the
enforcement of or preservation of rights hereunder or under any letter of credit or other document submitted
in connection herewith.
5.3
Assignment and Participation. COBANK may at any time sell, assign, transfer or
grant participations in all or any portion of its right, title and interest in and to any Loans made pursuant
hereto to the CCC, the exporter or any other financial institution.
Nature of Agreement. Notwithstanding any provision contained herein the line of
5.4
credit to which it refers is revocable by CoBANK at any time for any reason.
5.5
Borrower’s Authority. By accepting these Terms, Borrower represents and
warrants that Borrower’s execution and performance under the letter of credit repayment obligations set
forth in the Credit Extension have been duly authorized, that such governmental approvals (including,
without limitation, foreign exchange approvals) as may be required have been obtained and are in effect,
and that Borrower has been approved by the CCC for participation in the Export Credit Guarantee Program.

CoBank, acb
By:
rQmberly S. prison
Title:

Vice President
June 28,2010

ACCEPTED AND AGREED TO:
INTERNATIONAL INDUSTRIAL BANK
By:
Title:
Date:

LGjw/G/agrccineat/(Revised 6/99)

App.64

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel of 38

17-1956-cr(L)
17-1969-cr, 17-2844-cr, 17-2866-cr

3n tijr United States Court of Appralo
for ttjr j^rcoofo Circuit
UNITED STATES OF AMERICA,
Plaintiff- Appellee - Cross-Appellant,
v.
SARAH ZIRBES,
Defendant,
PABLO CALDERON, BRETT C. LILLEMOE,
Defendants - Appellants - Cross-Appellees.
ON APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT NO. 3:15-CR-25
(THE HONORABLE JANET C. HALL, CJ.)
FINAL FORM REPLY BRIEF
OF DEFENDANT-APPELLANT PABLO CALDERON
Pablo Calderon
ProSe
7 Old Parish Road
Darien, CT 06820
(203) 613-6748

App.65

Case 17-1956, Document 232, 07/30/2018, 2355069, Page2 of 38

TABLE OF CONTENTS
TABLE OF AUTHORITIES

li

INTRODUCTION

1

ARGUMENT

3

I.

n.

THE RIGHTS AND OBLIGATIONS OF LETTER OF
CREDIT CONFIRMERS.............................................
THE INDICTMENT MUST BE DISMISSED BECAUSE
LILLEMOE’S OR CALDERON’S ACTIONS NEVER
PUT THE U.S. BANKS’ PROPERTY RIGHTS AT RISK.
a.

b.

c.

3

10

The U.S. Banks’ Right to Reimbursement by the LC
Issuers Was Never at Risk........................................

11

The U.S. Banks’ Property Rights in the Loans and
Guarantees Were Never at Risk............................

15

Contemplated Harm is Lacking as a Matter of Law

18

III. LILLEMOE’S AND CALDERON’S STATEMENTS
WERE NOT FALSE..................................................

22

IV. CONFIRMERS COULD NOT HAVE DISHONORED
LILLEMOE’S OR CALDERON’S DOCUMENTS EVEN
WITH KNOWLEDGE OF ALLEGED
MISREPRESENTATIONS...............................................

24

THE ALLEN CHARGE WAS UNDULY COERCIVE

29

V.

VI. CALDERON RESTS ON HIS OTHER ARGUMENTS
REQUIRING A NEW TRIAL......................................

App.66

30

Case 17-1956, Document 232, 07/30/2018, 2355069, Page3 of 38

31

CONCLUSION

TABLE OF AUTHORITIES
CASES
3Com Corp. v. Banco do Brasil, S.A.,
171 F.3d 739 (2d Cir. 1999)...........

7

3Com Corp. v. Banco do Brasil, S.A.,
2 F.Supp.2d 452 (S.D.N.Y.1998), affd 171 F.3d 739 (2d Cir.
1999).........................................................................................

8

ACE Am. Ins. Co. v. Bank of the Ozarks,
2014 WL 4953566 (S.D.N.Y. Sept. 30, 2014)

27

Airline Reporting Corp. v. First Nat'l Bank ofHolly Hill,
832 F.2d 823 (4th Cir. 1987)...........................................

8

Alaska Textile Co. v. Chase Manhattan Bank, N.A.,
982 F.2d 813 (2d Cir. 1992).................................

6

Banco Nacional De Mexico, S.A. v. Societe Generate,
34 A.D.3d 124, 820 N.Y.S.2d 588 (2006)...............

10

BasicNet S.p.A. v. CFPServs. Ltd.,
127 A.D.3d 157, 4 N.Y.S.3d 27 (N.Y. App. Div. 2015)

8

Centrifugal Casting Mach. Co. v. Am. Bank & Tr. Co.,
966 F.2d 1348 (10th Cir. 1992)................................

7

First Commercial Bank v. Gotham Originals, Inc.,
64 N.Y.2d 287,475 N.E.2d 1255 (1985)............

9

App.67

Case 17-1956, Document 232, 07/30/2018, 2355069, Page4 of 38

Ground Air Transfer v. Westate's Airlines,
899 F.2d 1269 (1st Cir.1990)................

8

Intraworld Indus., Inc. v. Girard Tr. Bank,
461 Pa. 343 A.2d 316 (1975)................

7,8

Itek Corp. v. First Nat. Bank ofBoston,
730 F.2d 19 (1st Cir. 1984)...............

7,8

Maurice O'Meara Co. v. Nat'l Park Bank ofNew York,
239 N.Y. 386, 146 N.E. 636 (1925)...........................
Nederv. United States,
527 U.S. 1 (1999) ...

9

25

Record Optical, Inc. v. Government ofIsrael,
816 F.2d 854 (2d Cir.1987)........................

8

Roman Ceramics Corp. v. Peoples National Bank,
714 F.2d 1207 (3d Cir.1983)...............................

7

Sztejn v. J. Henry Schroder Banking Corp.,
Ill Misc. 719, 31 N.Y.S.2d 631 (Sup. Ct. 1941)

7, 9, 12

United Bank Ltd. v. Cambridge Sporting Goods Corp.,
41 N.Y.2d 254, 360 N.E.2d 943 (1976).....................

9

United States v. Finazzo,
850 F.3d 94 (2d Cir. 2017)

19

United States v. Regent Office Supply Co.,
421 F.2d 1174 (2d Cir. 1970)................

22

STATUTES
10, 17

18U.S.C. § 1343

App.68

Case 17-1956, Document 232, 07/30/2018, 2355069, Page5 of 38

3, 10, 17, 30

18U.S.C. § 1344

Colo. Rev. Stat. Ann. §§ 4-5-102, 103,107, 108, 109 (West)

3

NYUCC §§ 5-102, 103, 107, 108, 109 (McKinney)

3

Uniform Commercial Code § 5-102

4

Uniform Commercial Code § 5-103

5,6

Uniform Commercial Code § 5-107

4

Uniform Commercial Code § 5-108

4, 6, 12

Uniform Commercial Code § 5-109

passim

REGULATIONS
14, 17

7 C.F.R. § 1493
OTHER MATERIALS
James G. Barnes, Defining Good Faith Letter of Credit
Practices,
28 Loy. L. A. L. Rev. 101 (1994).............................

App.69

28

Case 17-1956, Document 232, 07/30/2018, 2355069, Page6 of 38

INTRODUCTION
The government’s brief and the lower court completely ignore Uniform
Commercial Code Article 5 (“UCC”) of the States of New York and Colorado
that govern the letters of credit (“LCs”) in this case. See the lower court’s ruling
on the motions for judgement of acquittal. DN420 (SA1-28). Instead of basing
their legal theories on the law, the government and the lower court create
fictional rights and obligations and attempt to prove that Lillemoe’s and
Calderon’s actions put at risk Deutsche Bank’s and CoBank’s (“U.S. banks”,
“confirmers”) property rights in the letters of credit and in the guaranteed loans
that financed the obligations of the issuing banks. Instead of instructing the
jury on the controlling law - the UCC - the lower court looked to government
witnesses at trial to dictate the law or left the jury to divine it.
An understanding of the well-established rights and obligations of the
parties to an LC requires reading the UCC and the case law. In light of the
actual law, the government and lower court’s theories make no sense. Two
basic assumptions underlying the indictment and the theories of the government
and the lower court alike, are that the U.S. banks honored in good faith and that
Lillemoe’s and Calderon’s presentations were complying on their face. DN1
(JA86-117). Based on these two facts alone, the U.S. banks’ property rights

App.70

Case 17-1956, Document 232, 07/30/2018, 2355069, Page7 of 38

were never at risk and the indictment must be dismissed as a matter of law.
Neither the government nor the lower court alleges fraud on the parties
of the underlying GSM transactions, the shippers who sold to Lillemoe the
rights to use their exports in the GSM-102 Program (“Program”) and the
Commodity Credit Corporation (“CCC”) that issued the guarantees, except for
three shipments (out of several thousand shipments Lillemoe and Calderon
submitted in the Program during the indictment period) where the government
alleges that the onboard dates disqualified them for use under the guarantees
CCC issued. However, under a reasonable interpretation of the Program
regulations, those three shipments do satisfy the requirements of the guarantees.
The undisputed facts show no fraud in the underlying transactions, which is
another ground for reversing the convictions as a matter of law.
Under the proper standard of examination, with or without the alleged
alterations, copies of bills of lading (“BLs”) were truthful and strictly complied
with the terms of the LCs. As Lillemoe’s and Calderon’s documents did not
misrepresent the underlying shipments, the falsity element of the fraud charges
fails.
Despite testimony by two bank witnesses at trial, no confirmer could
have dishonored Lillemoe’s and Calderon’s presentations because there was no

App.71

Case 17-1956, Document 232, 07/30/2018, 2355069, Page8 of 38

fraud in the underlying transaction — even if the confirmers knew of the
alleged alterations. The materiality element of the charges also fails.
The lower court also erred by giving an unduly coercive Allen charge.
Finally, Calderon rests on the arguments in his principal brief requiring a new
trial for the error of giving a no-ultimate-harm instruction or for an erroneous
instruction under 18 U.S.C. § 1344 (2).
ARGUMENT
I.

THE RIGHTS AND OBLIGATIONS OF LETTER OF
CREDIT CONFIRMERS
Under UCC law, the confirmer of an LC has two basic rights.1 First, the

confirmer has the right to dishonor a presentation of the documents required
for payment under the LC (“presentation”) that is not facially complying or
when there is fraud in the underlying transaction. In other words, the confirmer
has the obligation to honor a facially complying presentation lacking fraud in
the transaction. Second, the confirmer who has honored a facially complying

i

The references in this reply brief to the model UCC correspond verbatim to
the text of Chapter 38 of the Consolidated Laws of New York Annotated,
Uniform Commercial Code, the law applicable to LCs confirmed by Deutsche
Bank, and Title 4 of the Colorado Revised Statutes Annotated, Uniform
Commercial Code, the law applicable to LCs confirmed by CoBank. The texts
are contained in sections NYUCC §§ 5-102, 103, 107, 108, 109 (McKinney)
and Colo. Rev. Stat. Ann. §§ 4-5-102, 103,107, 108, 109 (West).
App.72

Case 17-1956, Document 232, 07/30/2018, 2355069, Page9 of 38

presentation without knowledge of fraud has the right to reimbursement by the
LC issuer.
The issuer of a LC has the obligation to honor a presentation that
“appears on its face strictly to comply with the terms and conditions of the
letter of credit” (emphasis added). UCC § 5-108(a) (SA162). A confirmer “has
the rights and obligations of an issuer”, including the obligation to honor a
facially complying presentation. UCC § 5-107(a) (SA160).2 The obligation to
honor a facially complying presentation is not absolute, however. UCC §5108(a) (SA162) provides for the exception codified in UCC § 5-109 (SA168).
If a presentation that “appears on its face to strictly comply [...] but a required
document is forged or materially fraudulent, or honor of the presentation would
facilitate a material fraud by the beneficiary on the issuer or applicant [...] the
issuer, acting in good faith may honor or dishonor the presentation”. UCC § 5109 (a)(2) (SA168).3

2 The term confirmer is defined in UCC § 5-102(4) (SA152).
3 Official Comment 1 to UCC § 5-109 (SA168-169) emphasizes that fraud
must be “material” and suggests a standard for courts to decide “materiality”
but admonishes that “only by examining [the underlying] transaction can one
determine whether a document is fraudulent or the beneficiary has committed
fraud”. “Material fraud by the beneficiary occurs only when the beneficiary
has no colorable right to expect honor and where there is no basis in fact to
support such a right to honor.” Id.
App.73

Case 17-1956, Document 232, 07/30/2018, 2355069, PagelO of 38

The “fraud exception” applies to both the issuer’s and the confirmer’s
obligation to honor a facially complying presentation by the beneficiary, but
not to the reimbursement by the issuer to a confirmer who has honored in good
faith the beneficiary’s presentation. “[T]he issuer shall honor the presentation,
if honor is demanded by [...] a confirmer who has honored its confirmation in
good faith [or] a holder in due course of a draft drawn under the letter of credit”.
UCC § 5-109 (a)(1) (SA168). In other words, the confirmer’s right to
reimbursement for honoring a facially complying presentation in good faith is
immune to fraud in the transaction.4
The key feature in LCs that the obligation to honor stops short of fraud
only, is called the “independence principle”. “Rights and obligations of an
issuer to a beneficiary or a nominated person under a letter of credit are
independent of the existence, performance, or nonperformance of a contract or
arrangement out of which the letter of credit arises”.

UCC § 5-103(d)

4 Official Comment 6 to UCC § 5-109 (SA170) explains: “Section 5109(a)(1) also protects specified third parties against the risk of fraud. By
issuing a letter of credit that nominates a person to negotiate or pay, the issuer
(ultimately the applicant) induces that nominated person to give value and
thereby assumes the risk that a draft drawn under the letter of credit will be
transferred to one with a status like that of a holder in due course who
deserves to be protected against a fraud defense.”
App.74

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagell of 38

(SA157). 5

“An issuer is not responsible for the performance or

nonperformance of the underlying contract, arrangement, or transaction”. UCC
§ 5-108 (f)(1) (SA162). This court has explained the independence principle
as follows:
The fundamental principle governing documentary letters of credit
and the characteristic which gives them their international
commercial utility and efficacy is that the obligation of the issuing
bank to [honor] a draft on a credit when it is accompanied by
documents which appear on their face to be in accordance with the
terms and conditions of the credit is independent of the
performance of the underlying contract for which the credit was
issued. [...] This independence principle infuses the credit
transaction with the simplicity and certainty that are its hallmarks.
The letter of credit takes on a life of its own as manifested by the
fact that in credit operations all parties concerned deal in
documents, not in goods, services, and/or other performances to
which the documents may relate.
Alaska Textile Co. v. Chase Manhattan Bank, N.A., 982 F.2d 813, 815-17 (2d
Cir. 1992). “[T]he issuer must honor a proper demand even though the
beneficiary has breached the underlying contract[....]

This principle of

independence is universally viewed as essential to the proper functioning of a
letter of credit and to its particular value, i.e., its certainty of payment.”

5 Official Comment 1 of UCC § 5-103 (SA157) explains that “[o]nly staunch
recognition of this principle by the issuers and the courts will give letters of
credit the continuing vitality that arises from the certainty and speed of
payment under letters of credit.”
App.75

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel2 of 38

Centrifugal Casting Mach. Co. v. Am. Bank & Tr. Co., 966 F.2d 1348, 1352
(10th Cir. 1992).
Despite the importance of insulating the LC from the underlying
transaction to achieve the LC’s commercial purpose, courts have long
recognized situations of fraud in which the wrongdoing of the beneficiary has
“so vitiated the entire transaction that the legitimate purposes of the
independence of the issuer's obligation would no longer be served”. Itek Corp.
v. First Nat. Bank of Boston, 730 F.2d 19, 25 (1st Cir. 1984), quoting Roman
Ceramics Corp. v. Peoples National Bank, 714 F.2d 1207, 1217 (3d Cir.1983),
quoting Intraworld Indus., Inc. v. Girard Tr. Bank, 461 Pa. 343, 359, 336 A.2d
316, 324-325 (1975). The seminal, pre-code case of the fraud exception to the
independence principle is Sztejn v. J. Henry Schroder Banking Corp., Ill Misc.
719, 31 N.Y.S.2d 631 (Sup. Ct. 1941). Sztejn was sold bristle as specified in
the shipping documents and the LC. In fact, “worthless rubbish” shipped and
the court ordered a permanent injunction against honor of the LC by the issuer.
This Court has explained that the fraud defense “authorizes dishonor only
where ‘a drawdown would amount to an outright fraudulent practice by the
beneficiary.’” 3Com Corp. v. Banco do Brasil, S.A., 171 F.3d 739, 747 (2d Cir.
1999) quoting Recon/Optical, Inc. v. Government of Israel, 816 F.2d 854, 858

App.76

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel3 of 38

n. 4 (2d Cir. 1987) explaining the “fraud in the transaction” doctrine.
The [fraud] exception, as we also explained in Itek, 730 F.2d at
24-25, concerns ‘fraud’ so serious as to make it obviously
pointless and unjust to permit the beneficiary to obtain the money.
Where the circumstances ‘plainly’ show that the underlying
contract forbids the beneficiary to call a letter of credit, Itek, 730
F.2d at 24; where they show that the contract deprives the
beneficiary of even a ‘colorable’ right to do so, id. at 25; where the
contract and circumstances reveal that the beneficiary's demand
for payment has ‘absolutely no basis in fact,’ id.
Ground Air Transfer v. Westate's Airlines, 899 F.2d 1269, 1272—73 (1st Cir.
1990).
To defend dishonor the LC issuer carries the burden of proving fraud. In
Intraworld, an injunction against honor was refused because the plaintiff was
unable to prove that the beneficiary “had no bona fide claim for payment [in
the underlying contract] and that her documented demand had absolutely no
basis in fact.” Intraworld, 461 Pa. at 363. “The issuer bears the burden of
proving the fraud if it alleges fraud as a defense to an action for wrongful
dishonor.” Airline Reporting Corp. v. First Nat'l Bank of Holly Hill, 832 F.2d
823, 827 (4th Cir.1987); see 3Com Corp., 2 F.Supp.2d 452, 461
(S.D.N.Y.1998), affdsub nom. 3Com Corp., 171 F.3d 739 (2d Cir. 1999) .6

6 A recent case explaining the independence principle and the fraud exception
is BasicNet S.p.A. v. CFP Servs. Ltd., 127 A.D.3d 157,4 N.Y.S.3d 27 (N.Y.
App. Div. 2015), 86 UCC Rep.Serv.2d 113,2015 N.Y. Slip Op. 02080.
App.77

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel4 of 38

While the fraud exception to the independence principle has a long
history, concurrently, courts have recognized the need to protect certain classes
from the fraud defense. Judge Cardozo, in dissent, distinguished a holder of a
draft that is aware of fraud from the innocent holder. Maurice O'Meara Co. v.
Nat'l Park Bank ofNew York, 239 N.Y. 386,401,146 N.E. 636,641 (1925). “If
[...] the bank presenting the draft for payment was a holder in due course, its
claim against the bank issuing the letter of credit would not be defeated even
though the primary transaction was tainted with fraud.” Sztejn at 635. In
United Bank Ltd. v. Cambridge Sporting Goods Corp., 41 N.Y.2d 254, 360
N.E.2d 943 (1976), the court upheld an injunction against payment of drafts in
a case where fraud-in-the-transaction was established because the confirmer
did not prove that it was holder in due course of the drafts. “Notwithstanding
[the fraud] exception, if the person presenting a draft drawn on a letter of credit
is a holder in due course (see, Uniform Commercial Code § 3-302), the issuer
must pay the draft, whether it has notice of forgery or fraud or not.” First
Commercial Bank v. Gotham Originals, Inc., 64 N.Y.2d 287, 295, 475 N.E.2d
1255, 1259 (1985). To defend dishonor, “an issuing bank must first establish
that a presentation is fraudulent and only then does the burden shift to the
confirming or negotiating bank to show that it paid in good faith.” Banco

App.78

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel5 of 38

Nacional De Mexico, S.A. v. Societe Generale, 34 A.D.3d 124, 132, 820
N.Y.S.2d 588 (2006), citing UCC § 5-109(a)(l)(ii) (SA168).
II.

THE INDICTMENT MUST BE DISMISSED BECAUSE
LILLEMOE’S OR CALDERON’S ACTIONS NEVER PUT
THE U.S. BANKS’ PROPERTY RIGHTS AT RISK
In each of Lillemoe’s and Calderon’s transactions, the U.S. banks were

parties to two related but distinct contracts. The banks were confirmers of the
LCs issued on Appellants’ behalf as LC applicants. The U.S. banks also
provided loans to the foreign banks, issuers of the LCs. The loans financed the
obligation to reimburse the U.S. banks for honoring Appellants’ presentations
as beneficiaries. The contemplated harm element of the fraud charges here, 18
U.S.C. §§ 1343, 1344, concern only the U.S. banks’ property rights in those
two contracts. The inquiry into the harm element starts by determining whether
Lillemoe’s and Calderon’s actions ever put the U.S. banks’ property rights at
risk.
As LC confirmers that honored Lillemoe’s and Calderon’s presentations,
the U.S. banks had only one property right in the LC contracts: reimbursement
by the issuing banks. As lenders to the LC issuing banks, the U.S. banks had
three property rights: (1) full and truthful disclosure of information relating to
the creditworthiness of the borrowers, (2) principal and interest payments of

App.79

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel6 of 38

the loans, and (3) the loan collateral, in this case, the GSM-102 guarantees
assigned to them.
a.

The U.S. Banks’ Right to Reimbursement by the
LC Issuers Was Never at Risk

There are three separate grounds to conclude as a matter of law that the
U.S. banks’ right to reimbursement was never at risk. First, it is plainly stated
in the indictment. “[T]he foreign banks were obligated to repay the funds to the
U.S. financial institutions by virtue of the letters of credit issued to the U.S.
financial institutions”. DN1146 (JA96).
Second, Lillemoe’s and Calderon’s presentations were on their face
complying and the U.S. banks honored them in good faith. The U.S. banks and
LC issuing banks both determined the presentations to be facially complying
because the U.S. banks paid, as the indictment charges, “large amounts of
capital” and the LC issuing banks accepted their obligation to reimburse the
U.S. banks. DN1

44, 46 (JA96). There is no dispute that in fact the

presentations were facially complying. Further, the indictment alleges that the
U.S. banks are the victims of fraud, not participants in fraud. “[T]he banks’
good faith — their absence of knowledge — was a fundamental premise of the
government’s case. See Tr.4747:18 (closing: arguing the banks would not have
paid ‘[i]f they had known’)”. Lillemoe Br. 48.

App.80

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel7 of 38

Based on these two facts explicitly alleged in the indictment, the U.S.
banks had the right to reimbursement as a matter of law by the letter of UCC §
5-109(a)(1)(h) (SA168).

No alleged misrepresentations by Lillemoe or

Calderon, and no claims of fraud could have affected the confirmers’ right to
reimbursement because they honored facially complying presentations in good
faith. A confirmer has more rights than a LC beneficiary, in that it is immune
to the fraud defense of the issuer’s dishonor. Holders in due course of drafts
drawn on LCs have been protected from fraud since Sztejn, when it became
widely accepted law that fraud can override the independence of the issuer’s
obligation.7 See supra, Sztejn at 635.
Third, there was no fraud in the transactions underlying the LCs.
Without fraud in the transaction, the issuing bank has no legal ground to
dishonor a facially complying presentation, whether the beneficiary or the
confirmer demands honor. The issuer must honor by UCC § 5-108(a) (SA162)
and has no ground to dishonor under UCC § 5-109(a)(2) (SA168). The same
conclusion ensues, that the U.S. banks’ right to reimbursement was never at

7 The U.S. banks were also holders of drafts in the Appellants’ transactions
including the transaction of the wire fraud counts of conviction under
guarantee 821940. See GX207 at 8227 (JA1864). As the U.S. banks honored
in good faith, they were holders in due course. See UCC § 5-109(a)(l)(iii)
(SA168).
App.81

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel8 of 38

risk as a matter of law.
The requirement to defeat the issuer’s obligation to honor is high and
examination of the transactions underlying Lillemoe’s and Calderon’s LCs
shows that they do not meet the “no colorable right”, “no basis in fact” standard
of fraud. See UCC § 5-109 Official Comment 1 (SA168-169). Lillemoe’s and
Calderon’s Program transactions are of the “third party” type described by the
lower court. See DN420 at 4-5 (SA4-5) and Calderon Br. 8-11. In a third party
transaction, the Program participant buys a third party’s right to use a shipment
in a guarantee application. In such a transaction, fraud can happen in one of
two ways, using a third party’s shipment without the right to do so, or using a
shipment that doesn’t qualify for the guarantee or that is outright fictitious. The
government does not allege that the Appellants did not have right to the
shipments or that the shipments did not exist. “[Lillemoe and Calderon] would
and did make arrangements to pay for the bills of lading [...] by paying [...] in
order to purchase copies of the shipping documents”. DN1 f 36 (JA94-95).
“The defendants purchased the bills of lading used in [the “Cool Express”
transaction of the wire fraud counts] from a third-party exporter”. U.S. Br. 20.
The government only alleges that three shipments (out of thousands) submitted
by Lillemoe and Calderon in Program guarantees do not qualify. “Without the

App.82

Case 17-1956, Document 232, 07/30/2018, 2355069, Pagel9 of 38

date changes, the shipments would not have been compliant with the date
restrictions in the program”. U.S. Br. 14. The changed onboard dates of the
three corresponding BLs are the only possible basis for fraud in Lillemoe’s and
Calderon’s transactions.
As explained in their briefs, there is colorable ground that the disputed
shipments do qualify. See Calderon Br. 34-38 and Lillemoe Br. 35-40. As the
definition of Date of Export is ambiguous, under a “reasonable” construction
of 7 C.F.R. § 1493.20(d) (SA67), the three disputed shipments do qualify for
the guarantees. Calderon Br. 37-38. Lillemoe reaches the same conclusion,
construing the regulatory text according to its “natural meaning”. Lillemoe Br.
35. Calderon’s and Lillemoe’s arguments are more than sufficient to defeat the
issuer’s right to dishonor and they also show that based on undisputed facts the
transactions are not fraudulent as a matter of law. In response the government
argues that it, too, has a plausible interpretation of the regulation and that the
jury was “entitled” to determine the sole legally valid definition. U.S. Br. 41.
Yet the government’s arguments prove no criminal liability, as its burden is not
to show there exists a reasonable interpretation of an ambiguous regulation
under which the shipments do not qualify, but rather it must show that the
shipments do not qualify under all reasonable interpretations. See Calderon Br.

App.83

Case 17-1956, Document 232, 07/30/2018, 2355069, Page20 of 38

34-35, referring to the well-established standard for criminal false statements.
Not having a basis in law, the government’s theory then transfers upon the illinstructed jury the court’s function of interpreting the regulatory text.
The government has shown that, at most, CCC may have ground to
dispute three shipments under two guarantees. There was no fraud on CCC as
a matter of law and that precludes any possibility of defending the issuers’
dishonor of the presentations. But it is not necessary to rely on the evidence at
trial to conclude that the U.S. banks’ right to reimbursement was never at risk
— the facts stated in the indictment suffice. The U.S. banks, as confirmers that
honored facially complying presentations in good faith, are immune to the fraud
defense to dishonor.
b.

The U.S. Banks’ Property Rights in the Loans
and Guarantees Were Never at Risk

Though Lillemoe and Calderon were not parties to the guaranteed loans
that the U.S. banks extended to the LC issuers, their LCs created the obligations
financed by the loans and they assigned the guarantees. Calderon Br. 5. As
lenders, the U.S. banks had a property right to truthful information on the ability
of the borrower to repay and on the value of the collateral, here the guarantees.
Neither the U.S. banks nor CCC as guarantor relied on Lillemoe or Calderon
to analyze the credit of the borrowers. Lillemoe and Calderon were only

App.84

Case 17-1956, Document 232, 07/30/2018, 2355069, Page21 of 38

required to provide the name of the borrower bank, which they did truthfully.
The U.S. banks were not deceived on the nature and characteristics of the loans
and associated guarantees. See GX207 at 8215,8244 (JA1852, JA1881). Thus,
the only possible question is the outright validity of the contracts.

The

borrowers could repudiate the obligation under the LC and as a result repudiate
the loan, or CCC could repudiate the guarantees after assignment to the U.S.
banks. As demonstrated above, the borrowers had no legal basis to dishonor
the reimbursement obligation and therefore had no legal basis to repudiate the
loan after acceptance of the obligation.
Likewise, CCC had no legal basis to repudiate guarantees based on
qualifying shipments. Only two guarantees, those based on the three shipments
where the Date of Export allegedly disqualifies them, might have caused an
unanticipated loss to the U.S. banks and consequently liability for Lillemoe.
But, as demonstrated in Lillemoe’s and Calderon’s briefs, Lillemoe did not
commit fraud in procuring the two guarantees.

Lillemoe Br. 35-40 and

Calderon Br. 34-38. No criminal liability can be attributed to Lillemoe or
Calderon based on a potential dispute over a guarantee contract and since the
U.S. bank did not claim under the two guarantees, there could be no contractual
dispute or liability under civil law either.

App.85

Case 17-1956, Document 232, 07/30/2018, 2355069, Page22 of 38

While CCC can repudiate a claim for loss by the beneficiary of a
Program guarantee based on a breach of contract, it cannot repudiate a claim of
an assignee that fulfilled the requirements of the assignment in good faith. The
protections of an assignee are codified in 7 C.F.R. § 1493.120(e) (Action
against the assignee) (SA77): “CCC will not hold the assignee responsible or
take any action or raise any defense against the assignee for any action,
omission, or statement by the exporter of which the assignee has no knowledge.”
The assignee’s right to claim for loss under a guarantee is immune to fraud
provided the assignee’s good faith, as is the right to reimbursement of the LC
confirmer who honored in good faith. Based solely on the indictment and its
assumption of good faith, the U.S. banks’ property right in the assigned
guarantees was never at risk as a matter of law.
The government’s theory purports that, to the contrary, the U.S. banks’
right to claim on the guarantees was at risk. “The defendants’ fraud placed the
banks at risk of losing the guarantee payments if the USDA determined that
they knew of the defendants’ misstatements.” U.S. Br. 48 n. 16. This make no
sense. Under the government’s theory, the named victim of fraud under 18
U.S.C. § 1343 or § 1344 can also aid and abet in the commission of the offense.
This Court should reject this theory.

App.86

Case 17-1956, Document 232, 07/30/2018, 2355069, Page23 of 38

c.

Contemplated Harm is Lacking as a Matter of
Law

In constructing a theory of harm, the lower court gets off on the right foot
despite ignoring LC law, but thereafter its logic deviates from the law making
its theory irreparably flawed. DN420 at 10-20 (SA10-20). The lower court
starts by correctly rejecting Lillemoe’s blanket averment that a LC confirmer
has no right to dishonor a facially complying presentation.8 As a consequence,
the lower court correctly reasons, the confirmer who knows of fraud has a
decision to make, to pay or not to pay, and that decision is “economic”. From
there on, the lower court and the law part ways.
“There was Sufficient Evidence to show that the Banks were Deprived
of Information Necessary to Make an Economic Decision”. DN420 at 10
(SA10). The title of the subsection in the lower court’s ruling suggests that a
beneficiary who commits fraud in the underlying transaction, necessarily
commits fraud on the confirmer by “depriving” it of the knowledge of fraud

8

The lower court does not understand the factual basis for the fraud exception
to the independence principle, which is fraud in the underlying transaction,
unless “unauthorized alteration of international trade documents” equates to
fraud in the lower court’s mind. DN420 at 13 (SA13). Throughout the
proceedings, the lower court systematically failed to distinguish mere
deception from fraud by ignoring or misconstruing the harm element.
App.87

Case 17-1956, Document 232, 07/30/2018, 2355069, Page24 of 38

because, presumably, the “non-disclosures can or do result in tangible
economic harm”, in this context, to the confirmer. U.S. Br. 45, quoting United
States v. Finazzo, 850 F.3d 94,111 (2d Cir. 2017) . The lower court’s theory of
harm is based on the faulty logic that if the confirmer is deceived into honoring,
it follows, without any basis in law, that the confirmer was harmed in the
transaction. The court maintains that “[Lillemoe’s theory] also fundamentally
misstates the risk he defrauded the banks into accepting”, thereby again
conflating deception with fraud.

DN420 at 15 (SA15).

To support its

conclusion the lower court relies on bank witness testimony suggesting the
alleged alterations jeopardized reimbursement and the ability to claim under
the guarantee. “[Womack] further testified that CoBank was concerned with
the bills of lading specifically because they were necessary to get repaid by the
foreign bank or, if the foreign bank failed to pay, under the GSM-120 program.”
DN420 at 13 (SA13). Instead of assuming its function as sole determiner of
rights and obligations under contract and law, the lower court assigns that role
to a government witness.
Later in its ruling, the lower court concedes Calderon’s argument that the
issuer’s obligation to reimburse was not affected, but immediately doubles
down on the conclusory theory that, when the confirmer is deceived, it is

App.88

Case 17-1956, Document 232, 07/30/2018, 2355069, Page25 of 38

defrauded. “Calderon's argument that the altered documents did not change the
obligation of IIB to repay the loan is beside the point of whether or not Lillemoe
and Calderon committed wire fraud. Wire fraud need not necessarily cause its
victim a loss: it is sufficient if the victim is deprived of its right to use its
property based on non-fraudulent information.” DN420 at 18 (SA18). On
similar arguments by Lillemoe and Calderon that CCC’s obligation to pay
claims under the guarantees could not be affected by the alleged alterations, the
lower court side-steps the correct conclusion of law and reverts to its
conclusory theory equating deception to fraud.
The lower court makes but one actual attempt to link deception to
potential harm. “[T]he doctoring of the underlying documents increased the
risk that the CCC would deny guarantee payments based on CCC's view that
CoBank was aware of the alterations. This dispute could potentially lead to
protracted and costly litigation over the issue of whether CoBank had
knowledge of the nature of the documents it had accepted.” DN420 at 16
(SA16). In that scenario and based on the assumption in the indictment that
CoBank acted in good faith, CoBank would certainly prevail in litigation for
breach of contract. The lower court’s theory of harm is therefore based on the
expected unfairness of the litigating court in awarding costs and damages, but

App.89

Case 17-1956, Document 232, 07/30/2018, 2355069, Page26 of 38

the litigating court deserves the same presumption of fairness that the lower
court expects from others.
The lower court errs in bypassing the required inquiry into the
transactions underlying the LC, here the question whether the shipments of
Lillemoe’s and Calderon’s transactions qualified for the guarantees. As shown
above, there was no fraud in the underlying transactions. The presumed fraud
in the court’s theory, based on alleged alterations of copy BLs, simply did not
exist. The multiple errors of law pervasive in the court’s theory translate
directly into erroneous jury instructions which invalidate the jury’s findings
that the court also relies on.
In its brief, the government recycles some of the lower court’s theory of
harm. One additional argument the government advances is to attribute to
Lillemoe and Calderon losses due to the borrower’s default on the loans. U.S.
Br. 47-49. As explained above, Lillemoe and Calderon cannot be held
accountable for a repudiation of the loans or the guarantees as there is no legal
basis and, likewise, they cannot be held accountable for the failure to perform
on the loans as neither the U.S. banks nor CCC relied in any way on Lillemoe
or Calderon in making the credit decisions to lend or issue guarantees. This
theory of harm has no merit.

App.90

Case 17-1956, Document 232, 07/30/2018, 2355069, Page27 of 38

Lillemoe’s and Calderon’s actions never put at risk the property rights
of the U.S. banks. They did not misrepresent the credit risk that the U.S. banks
and CCC deliberately assumed in the loans to the LC issuing banks. They did
not expose the U.S. banks to a legally viable cause for repudiation of loan or
guarantee. By well-established law in this Court, Lillemoe and Calderon did
not contemplate harm to the U.S. banks because there was no “discrepancy
between benefits reasonably anticipated” and “the actual benefits which the
defendant delivered, or intended to deliver”. See United States v. Regent Office
Supply Co., 421 F.2d 1174, 1182 (2d Cir. 1970). This conclusion of law can be
drawn from the fact implicit in the indictment that the U.S. banks honored
facially complying presentations in good faith.

For these reasons, the

indictment must be dismissed. In addition, there is a separate ground to reverse
the convictions, that Lillemoe and Calderon did not commit fraud on CCC.
ffl. LILLEMOE’S AND CALDERON’S STATEMENTS WERE
NOT FALSE
The government alleges that Lillemoe’s and Calderon’s documents
contain material misrepresentations in that copy-non-negotiable stamps were
replaced with “original” stamps and October 5 onboard dates with October 6
on copy BLs. U.S. Br. 13-18. The sole basis of the theory is witness testimony.

App.91

Case 17-1956, Document 232, 07/30/2018, 2355069, Page28 of 38

The testimony should be disregarded in its entirety and so should the theory.
The question here is whether Lillemoe’s and Calderon’s documents,
alleged alterations and all, satisfied the contractual requirements of the LC. It
is a question of interpretation of contractual language that, when “couched [...]
in language of common use and understanding, [is] purely a matter of law for
the court”. United States v. Race, 632 F.2d 1114,1120 (4th Cir. 1980). Further,
as to criminal liability, “one cannot be found guilty of a false statement under
a contract beyond a reasonable doubt when his statement is within a reasonable
construction of the contract.” Id. Here, whether other reasonable constructions
exist is irrelevant as is the construction of the government witnesses. If
Calderon’s construction of the contract is reasonable, as a matter of law
Lillemoe’s and Calderon statements must be interpreted according to his
construction when deciding whether Calderon is criminally liable of making or
being complicit of false statements.
Here the relevant requirements in the LCs are a “COPY OF ORIGINAL
ON BOARD OCEAN BILL(S) OF LADING” and “APPLICANT
AUTHORIZES PAYENT OF DOCUMENTS AGAINST DISCREPANCIES
BUT WITHOUT AFFECTING CCC REQUIREMENTS”. GX207 at 82148215 (JA1851-1852). The “discrepancies” clause means that the examination

App.92

Case 17-1956, Document 232, 07/30/2018, 2355069, Page29 of 38

rules of UCP do not apply to these documents. Calderon Br. 40. To comply,
the copy BLs must satisfy the requirements of the Program regulations, 7 C.F.R.
§ 1493.
As per the language of the regulations, and understood in context, a copy
BL is a document that faithfully reproduces the information in an actual
transportation document which is relevant in determining whether the shipment
qualifies for the guarantee. An “original” stamp is information about the
document, not about the shipment, therefore it is irrelevant to the validity or
“authenticity” of the copy BL. Except for three copy BLs with changed dates,
the government cannot dispute the truthfulness of statements under Calderon’s
construction of the term copy BL. Using Lillemoe and Calderon’s reasonable
construction of on board date, it cannot dispute that October 6 is a true on board
date for the three shipments and that the shipments do qualify for the guarantees.
Calderon Br. 34-38.
IV. CONFIRMERS COULD NOT HAVE DISHONORED
LILLEMOE’S OR CALDERON’S DOCUMENTS EVEN
WITH KNOWLEDGE OF ALLEGED
MISREPRESENTATIONS
To be material, Lillemoe’s and Calderon’s alleged misrepresentations
must be capable of influencing the confirmer’s decision to honor. See Neder v.

App.93

Case 17-1956, Document 232, 07/30/2018, 2355069, Page30 of 38

United States, 527 U.S. 1, 16 (1999). The banker witnesses, Womack and
Effing, both testified that they would not have paid had they known of
document changes. U.S. Br. 33-34. But Womack’s or Effing’s testimony is
irrelevant to materiality unless it reflects what a reasonable confirmer would
have decided. A reasonable jury, properly instructed in the applicable law,
would reject the testimony of the bankers and the government’s expert.
A confirmer presented with facially complying documents, as is the case
here, knows that there is only one defense to dishonor: fraud in the underlying
transaction. UCC § 5-109(a)(2) (SA168). Before dishonoring, a reasonable
confirmer who has learned of changes in documents needs evidence showing
that the beneficiary has “no colorable right to expect honor” and that his
demand for honor has “absolutely no basis in fact”. But here no such evidence
exists because, as explained above, there was no fraud in Lillemoe’s and
Calderon’s “third party” transactions when they had the right to use the
shipments in the Program and the shipments qualified for the guarantees. The
government concedes as much save two transactions with disputed on board
dates. If she became aware of the alleged misrepresentations, a reasonable
confirmer would not change her decision to honor Lillemoe’s and Calderon’s
presentations and a properly instructed jury cannot reasonably find materiality.

App.94

Case 17-1956, Document 232, 07/30/2018, 2355069, Page31 of 38

An unreasonable confirmer, like Womack and Effing, may say she
would dishonor but, ultimately, she would honor. The confirmer might
erroneously believe that Lillemoe’s or Calderon’s presentation is deceptive,
erroneously conflate deception with fraud — no differently than the
government or the lower court do — and refuse to pay. In that scenario
Lillemoe or Calderon would sue for wrongful dishonor and the litigating court
would order the confirmer to pay because, as demonstrated above, there is no
fraud in the underlying transaction, the only legal ground for dishonoring a
facially complying presentation.
Beyond the fact that the U.S. banks have no legal ground to dishonor, in
practice, if they have any remaining doubts after learning of changes in facially
complying documents, they would do the logical and easiest thing before
dishonoring, they would contact CCC, describe the relevant characteristics of
the shipment and, after confirmation that the shipments qualified, they would
honor, making this case moot. In general, banks are reluctant to dishonor
because, as explained above, an honest belief of fraud is not sufficient to defend
dishonor, only actual fraud. A confirmer or an issuer is much more likely to let
someone else enjoin payment, rather than dishonoring themselves, thereby

App.95

Case 17-1956, Document 232, 07/30/2018, 2355069, Page32 of 38

shifting the heavy burden of proving fraud.9

In Program transactions,

confirmers have but one possible economic motive to dishonor, an infirmity in
a guarantee. This is the actual “economic decision” that the lower court and
the government’s theories leave abstract and undefined. The theories collapse
under scrutiny based on the conceded fact that the shipments do qualify and, in
the case of the dates, the legal insufficiency to show that they do not qualify.
The government and the bankers’ testimony paint a false picture that
changed documents are an automatic cause for dishonor. The reality of the
marketplace is far from that:
Letter of credit beneficiaries prepare and procure the documents
that are required to perform their contractual obligations to the
applicant and to satisfy the conditions of the letter of credit
securing the applicant's payment obligations to the beneficiary. In
order to comply with the documentary requirements of the letter
of credit, beneficiaries frequently present documents containing
false statements. [...] This may occur because the parties did not
draft the letter of credit to match the terms of the underlying
9 The most common and unconfessed motive for the issuer to dishonor is that
the applicant is in default and she does not expect reimbursement. ACE Am.
Ins. Co. v. Bank of the Ozarks, 2014 WL 4953566 (S.D.N.Y. Sept. 30, 2014).
The issuer will typically nitpick the documents claiming they don’t comply,
and in addition claim fraud in the underlying transaction. Such defenses very
rarely succeed. In the case of Lillemoe’s and Calderon’s Program
transactions, the issuers were either fully collateralized before the transaction
or paid in full very shortly after honor. See Tr.3396:20-22 (JA950) and
GX1215 at 2124 (JA3607), showing same day $6,171,413.10 payment to the
issuer on the wire fraud counts transaction. The issuers had no economic
incentive to dishonor.
App.96

Case 17-1956, Document 232, 07/30/2018, 2355069, Page33 of 38

contract or the terms of the underlying contract are amended but
not the letter of credit. [...] In most cases the beneficiary is
apparently, if not actually, motivated to present the document
containing a false statement because deleting or qualifying the
false statement would make the document facially noncomplying
under the letter of credit. Suffice it to say that a surprising number
of presentations that are facially complying benefit from back
dating, unauthorized signing, misdescription of contractual
performance, and the like.
James G. Barnes, Defining Good Faith Letter of Credit Practices, 28 Loy. L.
A. L. Rev. 101, 105 (1994). Non-fraudulent facially complying documents
containing false statements commonly occur and dishonor is not supported by
practice or law, even when the unaltered documents are not complying.
Lillemoe’s and Calderon’s documents, however, did not contain false
statements and were complying without the alterations. Calderon Br. 40.
The fact that CoBank document checkers may reject a copy BL without
an “original” stamp, does not imply that such a copy BL is legally non­
complying or, equivalently for Program LCs, that it does not satisfy CCC
requirements. CoBank sets its own standard of examination that is more
stringent than required by law. It can reject a document that does not meet its
heightened standard, but it cannot expect a court to allow dishonor of legally
complying documents. For obvious business reasons Lillemoe and Calderon
strived to meet CoBank’s standard. GX208 at 78871 (JA1908). But there is

App.97

Case 17-1956, Document 232, 07/30/2018, 2355069, Page34 of 38

neither fraud nor intent to defraud in altering a document that is legally
complying so that it complies under both the legal standard and CoBank’s
standard. In the case of the October 6 dates, Lillemoe could have presented the
unchanged BLs with the port logs showing that the goods were onboard on
October 6. Lillemoe Br. 36. That might have led CoBank to reject the
documents but there is no legal certainty that CoBank could have ultimately
dishonored the presentation.

V. THE ALLEN CHARGE WAS UNDULY COERCIVE
While a lower court’s Allen charge must be viewed "in its context and
under all the circumstances,” the government’s brief focused on the judge's
instructions in isolation, failing to account for the potential for coercion arising
from the extraordinary combination of circumstances during the juiy’s
deliberation. See Jenkins v. United States, 380 U.S. 445, at 446. This Court
must ask whether, in light of all relevant circumstances, the Allen charge had
the effect of suggesting to the jury that it must reach unanimity even against the
jurors ’ conscientious judgment. Here, (1) the jury understood that the trial had
an absolute end date past which deliberations would not continue; (2) the lower
court instructed the jury to continue deliberations on three separate occasions
including when the jury finally stated that its deliberations were complete; (3)

App.98

Case 17-1956, Document 232, 07/30/2018, 2355069, Page35 of 38

the lower court refused to include a reasonable doubt reminder in its Allen
charge and; (4) the jury only required 93 minutes following receipt of the Allen
charge to reach a unanimous verdict, despite the fact that it had deliberated for
1,292 minutes over the course of 4 days and was unable to reach a unanimous
verdict. Calderon Br. 43-46. Even if, as the government suggests, no single
one of these factors would mandate a new trial, the combination led to an
impermissibly coercive Allen charge and, as a result, this Court should remand
this case for a new trial.
VI. CALDERON RESTS ON HIS OTHER ARGUMENTS
REQUIRING A NEW TRIAL
Calderon rests on the arguments in his principal brief requiring a new
trial for the error of giving a no-ultimate-harm instruction or for an erroneous
instruction under 18 U.S.C. § 1344 (2). Calderon Br. 51-59.

App.99

Case 17-1956, Document 232, 07/30/2018, 2355069, Page36 of 38

CONCLUSION
The indictment should be dismissed. In the alternative, because there was
neither deceit nor fraud on CCC, the judgement of the lower court should be
reversed. As a second alternative, the judgment should be vacated and the case
remanded for a new trial.
Respectfully submitted,

/s/ Pablo Calderon
Pablo Calderon
7 Old Parish Rd
Darien, CT 06820
(203) 613-6748
July 9,2018

App.100

